<html>
<title> - AIR QUALITY IMPACTS OF WILDFIRES: MITIGATION AND MANAGEMENT STRATEGIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 AIR QUALITY IMPACTS OF WILDFIRES: MITIGATION AND MANAGEMENT STRATEGIES

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2018

                               __________

                           Serial No. 115-165
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-422                       WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="780817381b0d0b0c101d1408561b171556">[email&#160;protected]</a>                               
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, CaliforniaL RUIZ, 
RICHARD HUDSON, North Carolina           California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

<RAU>
                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
TIM MURPHY, Pennsylvania             SCOTT H. PETERS, California
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
GREGG HARPER, Mississippi            DIANA DeGETTE, Colorado
PETE OLSON, Texas                    JERRY McNERNEY, California
BILL JOHNSON, Ohio                   TONY CARDENAS, California
BILL FLORES, Texas                   DEBBIE DINGELL, Michigan
RICHARD HUDSON, North Carolina       DORIS O. MATSUI, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    15
    Prepared statement...........................................    16
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    27

                               Witnesses

Herman Baertschiger Jr., Senator, Oregon State Senate............     6
    Prepared statement...........................................     8
    Answers to submitted questions...............................   198
Mary Anderson, Mobile and Area Source Program Manager, Air 
  Quality Division, Idaho Department of Environmental Quality....    17
    Prepared statement...........................................    20
    Answers to submitted questions...............................   202
Sonya Germann, State Forester, Montana Department of Natural 
  Resources and Conservation, Forestry Division..................    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................   207
Collin O'Mara, President, National Wildlife Federation...........    42
    Prepared statement...........................................    45
    Answers to submitted questions...............................   210
Tom Boggus, State Forester, Director of Texas A&M Forest Service.    50
    Prepared statement...........................................    52
    Answers to submitted questions...............................   214

                           Submitted Material

Report entitled, ``Prescribed Fire in North American Forest and 
  Woodlands,'' The Ecological Society of America, 2012...........    86
Report entitled, ``Prescribed Fire Policy Barriers and 
  Opportunities,'' University of Oregon, 2018....................    96
Article entitled, ``The Impact of Anthropogenic Climate Change on 
  Wildfire Across Western U.S. Forests,'' National Academy of 
  Sciences, October 18, 2016.....................................   132
Article entitled, ``Future Fire Impacts on Smoke Concentrations, 
  Visibility, and Health in the Contiguous United States,'' 
  GeoHealth, 2018................................................   138
Article entitled, ``We won't stop California's wildfires if we 
  don't talk about climate change,'' Washington Post editorial 
  board, August 8, 2018..........................................   157
Article entitled, ``Trump Inaccurately Claims California is 
  Wasting Waters as Fires Burn,'' New York Times, August 6, 2018.   159
Article entitled, ``Fueled by Climate Change, Wildfires Erode Air 
  Quality Gains,'' Scientific American, July 17, 2018............   163
Article entitled, ``Megafires: The growing risk to America's 
  forests, communities, and wildlife,'' National Wildlife 
  Federation, October 2017.......................................   174

 
 AIR QUALITY IMPACTS OF WILDFIRES: MITIGATION AND MANAGEMENT STRATEGIES

                              ----------                              


                      THURSDAY, SEPTEMBER 13, 2018

                  House of Representatives,
                       Subcommittee on Environment,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:15 p.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus, 
(chairman of the subcommittee) presiding.
    Present: Representatives Shimkus, McKinley, Harper, 
Johnson, Flores, Hudson, Walberg, Carter, Duncan, Walden (ex 
officio), Tonko, Ruiz, Peters, DeGette, McNerney, Cardenas, 
Matsui, and Pallone (ex officio).
    Staff Present: Samantha Bopp, Staff Assistant; Karen 
Christian, General Counsel; Kelly Collins, Legislative Clerk, 
Energy and Environment; Wyatt Ellertson, Professional Staff, 
Energy and Environment; Margaret Tucker Fogarty, Staff 
Assistant; Theresa Gambo, Human Resources/Office Administrator; 
Jordan Haverly, Policy Coordinator, Environment; Mary Martin, 
Chief Counsel, Energy and Environment; Sarah Matthews, Press 
Secretary, Energy and Environment; Drew McDowell, Executive 
Assistant; Brannon Rains, Staff Assistant; Peter Spencer, 
Senior Professional Staff Member, Energy; Austin Stonebraker, 
Press Assistant; Hamlin Wade, Special Advisor, External 
Affairs; Everett Winnick, Director of Information Technology; 
Jean Fruci, Minority Energy and Environment Policy Advisor; 
Caitlin Haberman, Minority Professional Staff Member; Rick 
Kessler, Minority Senior Advisor and Staff Director, Energy and 
Environment; Alexander Ratner, Minority Policy Analyst; and 
Catherine Zander, Minority Environment Fellow.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. I am going to call the committee to order and 
make a brief statement before I give my opening statement, is 
that we will have the chairman and the ranking member both come 
in their due time, and then we will break and allow them to do 
their opening statements. At least we can get started on time, 
if that is agreeable with everybody, which it seems like it is.
    I now recognize myself 5 minutes for an opening statement.
    A year ago, we took testimony to examine the air quality 
impacts of wildfires with the focus on stakeholder 
perspectives. Given the community's jurisdiction over air 
quality policies and public health, the goal then, as it is 
today, was to develop a better understanding of the health 
impacts of wildfires and what should be done to minimize those 
impacts.
    We return to the topic this afternoon to look closely at 
the mitigation and management strategies for reducing air 
quality risks from wildfire smoke. In large part, these 
strategies involve efforts to reduce the intensity and 
frequency of wildfires that threaten communities.
    The strategies also involve managing the inevitable smoke 
impacts, whether from wildfires or from what is known as 
prescribed burning. And they involve ensuring that effective 
actions are credited appropriately in air quality planning, air 
quality monitoring, and compliance activities, so States and 
localities are not punished for taking action that will improve 
public health.
    Last year, some 10 million acres were burned in the United 
States by wildfires, the second worst fire season since 1960. 
As of last week, this fire season has resulted in more than 7 
million acres burned, with acute impacts of smoke lingering for 
extended periods of time throughout California and the Pacific 
Northwest.
    The urgency for reducing the severity of these fires is 
underscored by news reports and reports from this committee's 
own members, including Chairman Walden, of the impacts of 
wildfire smoke. This smoke can smother communities with high 
levels of particulate matter and other respiratory irritants. 
These levels, which are manyfold over normal air quality, 
intensify asthma and chronic pulmonary diseases, and impact the 
lives of millions of people.
    Against this backdrop are a panel of witnesses who can 
speak to the complex set of strategies that are needed to more 
effectively address wildfires and smoke risks.
    We will hear today from two State foresters who oversee and 
implement fire management strategies in their States: Sonya 
Germann from the Montana Department of Natural Resources and 
Conservation, Tom--I hope this--Boggus.
    Mr. Boggus. Boggus.
    Mr. Shimkus. Boggus. Thank you. Bogus was a word we used at 
West Point. Boggus is better, so--the Texas State Forester and 
Director of Texas A&M Forest Service.
    While the general approaches among State forestry officials 
to mitigating risks are consistent, there are regional 
differences that affect what is put into practice and can 
inform future policymakers.
    We will hear a State air quality perspective. Mary 
Anderson, who is with the Idaho Department of Environmental 
Quality, can help us understand the practical challenges of 
managing wildfire smoke and how her agency works to address air 
quality risks.
    Collin O'Mara, President of the National Wildfire 
Federation, has been before the committee before, brings an 
environmental perspective, but is also experienced as a former 
head of the State of Delaware's Department of Natural Resources 
and Environment Control.
    And finally, we will hear from Oregon State Senator Herman 
Baertschiger from southern Oregon, who has extensive experience 
in forestry and wildland firefighting. I am looking forward to 
his perspective on what to do and his perspective on the 
impacts of wildfires on his constituents.
    Let me welcome the panelists. I look forward to 
understanding the challenges and the opportunities you face and 
what you can do to ensure our Federal air regulations 
accommodate these strategies.
    And with my remainder of time, I would like to yield to the 
gentleman of Texas, Mr. Flores.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    A year ago, we took testimony to examine the air quality 
impacts of wildfires, with a focus on stake holder 
perspectives. Given the Committee's jurisdiction over air 
quality policies and public health, the goal then, as it is 
today, was to develop a better understanding of the health 
impacts of wildfires and what should be done to minimize those 
impacts.
    We return to the topic this afternoon, to look closer at 
the mitigation and management strategies for reducing the air 
quality risks from wildfire smoke. In large part, these 
strategies involve efforts to reduce the intensity and 
frequency of wildfires that threaten communities.
    The strategies also involve managing the inevitable smoke 
impacts, whether from wildfires or from what is known as 
prescribed burning. And they involve ensuring that effective 
actions are credited appropriately in air quality planning, air 
quality monitoring, and compliance activities, so states and 
localities are not punished for taking action that will improve 
public health.
    Last year, some 10 million acres were burned in the United 
States by wildfires, the second worst fire season since 1960. 
As of last week, this fire season has resulted in more than 7 
million acres burned, with acute impacts of smoke lingering for 
extended periods of time, throughout California and the Pacific 
Northwest.
    The urgency for reducing the severity of these fires is 
underscored by news reports--and reports from this Committee's 
own members, including Chairman Walden--of the impacts of 
wildfire smoke. This smoke can smother communities with high 
levels of particulate matter and other respiratory irritants. 
These levels, which are many-fold over normal air quality, 
intensify asthma and chronic pulmonary diseases, and impact the 
daily lives of millions of people.
    Against this backdrop, our panel of witnesses can speak to 
the complex set of strategies that are needed to more 
effectively address wildfires and smoke risks.
    We will hear today from two state foresters, who oversee 
and implement fire management strategies in their States. Sonya 
Germann, from the Montana Department of Natural Resources and 
Conservation and Tom Boggus, the Texas State Forester and 
Director of the Texas A&M Forest Service. While the general 
approaches among state forestry officials to mitigating risks 
are consistent, there are regional differences that affect what 
is put into practice and can inform future policymaking.
    We will hear a state air quality perspective. Mary 
Anderson, who is with the Idaho Department of Environmental 
Quality, can help us understand the practical challenges of 
managing wildfire smoke, and how her agency works to address 
air quality risks.
    Collin O'Mara, President of the National Wildlife 
Federation, brings an environmental perspective but also 
experience as the former head of the State of Delaware's 
Department of Natural Resources and Environmental Control.
    And finally, we will hear from Oregon State Senator Herman 
Baertshiger, from southern Oregon, who has extensive experience 
in forestry and wildland firefighting. I'm looking forward to 
his perspective on what to do, and his perspective on the 
impacts of wildfires on his constituents.
    Let me welcome the panelists. I look forward to 
understanding the challenges and opportunities you face, and 
what we can do to ensure our Federal air regulations 
accommodate these strategies.

    Mr. Flores. So thank you, Mr. Chairman, for yielding me a 
part of your time, and thank you for holding today's important 
hearing.
    I am pleased to welcome my constituent, Mr. Tom Boggus, to 
today's hearing. He is testifying on behalf of the National 
Association of State Foresters. Mr. Boggus is a native of Fort 
Stockton, Texas, and he joined the Texas A&M Forest Service in 
1980. He was appointed as the director and State forester of 
the Texas A&M Forest Service in February of 2010, and he has 
extensive familiarity with the issue we are going to be 
discussing today.
    I look forward to hearing from him, along with the rest of 
our expert witnesses, on how we can appropriately manage our 
forests to minimize wildfire impacts.
    Thank you, and I yield back.
    Welcome, Mr. Boggus.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes the ranking member of the 
subcommittee, Mr. Tonko, for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair. And thank you to our 
witnesses for being here this afternoon.
    As some of you may remember, this subcommittee held a 
similar hearing last year on wildfires and air quality issues. 
Since that time, we confirmed that, in 2017, more than 66,000 
wildfires burned approximately 10 million acres. 2018 is 
proving to be another difficult year. Right now, there are over 
80 active fires covering over a million acres and threatening 
people's health and safety and property, including the 
Mendocino Complex fire, the largest recorded fire in 
California's history.
    Undeniably, these fires have become increasingly worse in 
recent years. Today, we will hear about the consequences of 
wildfires to both human health as well as forest health. Smoke, 
which includes particulate matter, is harming people, and the 
growing number and size of these fires are erasing the gains 
that have been made under the Clean Air Act in reducing fine 
particulate matter pollution.
    We will also hear about the best practices in forest 
management, including prescribed burns and other tools, that 
can mitigate some of the worst impacts of these fires and 
reduce the harm of smoke. While I do not follow this issue as 
closely as many of our western colleagues, my understanding is 
that historically the method for funding the United States 
Forest Service emergency fire response has been a major factor 
in limiting funding for more proactive forest management 
activities.
    In March, Congress passed the fiscal year 2018 omnibus 
appropriations bill, which included a fire funding fix that 
will take effect in fiscal year 2020. I acknowledge that more 
may need to be done to promote better forest management 
techniques, but we must see how this fix plays out before 
adopting new major provisions that undermine environmental laws 
in our national forests.
    As we discuss the devastation that can be caused by Mother 
Nature, we must also acknowledge our fellow Americans that are 
facing down Hurricane Florence. Whether it is hurricanes on the 
East Coast or fires out west, we are experiencing more frequent 
and costly natural disasters across our country. As with 
hurricanes, climate change creates conditions that make 
wildfires worse. Droughts, dryer soils, and higher 
temperatures, all associated with climate change, are resulting 
in a longer fire season and causing an increase in the severity 
and frequency of wildfires.
    A 2016 study published in the Proceedings of the National 
Academy of Sciences concluded that human-caused climate change 
is responsible for the doubling of the area burned by wildfires 
since 1984. In 2017, the National Wildfire Federation, which is 
represented here today by NWF President Collin O'Mara, released 
a report entitled Megafires, which examined how climate change 
and other issues, including the funding issues at the United 
States Forest Service, are contributing to this growing 
problem.
    I appreciate our witnesses being here to discuss the 
consequences of wildfires, air quality being chief among them, 
as well as some of the potential mitigation options such as 
more proactive forest management. But we do ourselves a 
disservice if we continue to hold hearings only looking at the 
effects of these fires while ignoring the underlying causes, 
including climate change that will continue to exacerbate this 
problem.
    Thank you again, Mr. Chair, and I yield the remainder of my 
time to my good friend and colleague, Representative Matsui of 
California.
    Ms. Matsui. Thank you, Ranking Member Tonko, for yielding. 
And I want to thank the witnesses for being here today.
    I appreciate the subcommittee is holding a hearing on this 
important issue. California has had a historic year for fire. 
The Mendocino Complex fire consumed over 410,000 acres, burning 
for more than a month, and becoming the largest in our State's 
history. The Ferguson Fire took the lives of two brave 
firefighters and closed Yosemite National Park for 20 days. And 
the Carr Fire destroyed over 1,000 homes near Redding, north of 
my district.
    While my district was fortunate and did not directly endure 
a wildfire this summer, Sacramento residents still had to 
contend with the smothering impacts of wildfire smoke. We had a 
record-breaking streak of 15 consecutive spare-the-air days 
when air quality was so poor that our air district encouraged 
people to stay inside and reduce pollution in any way possible.
    If we don't take meaningful steps to reduce the risk and 
intensity of wildfires, then we will continue to face these 
overwhelming health, safety, and environmental challenges. That 
means we must adopt a sustainable approach to wildfire risk 
reduction. Management policies must recognize the impacts of 
climate change and the need to sustainably reduce the fuel load 
in our forests, ultimately moving their condition towards the 
pre-fire exclusion baseline.
    Thank you, and I look forward to hearing the testimony from 
our witnesses.
    I yield back. 
    Mr. Tonko. And I yield back our remaining 8 seconds. There 
you go.
    Mr. Shimkus. The gentleman yields back his time.
    The chairman is running over here. The ranking member, I 
can see, is still on the floor. So we will begin with our 
witnesses and then interrupt as we can.
    We want to thank you all for being here today, taking the 
time to testify before the subcommittee. Today's witnesses will 
have the opportunity to give opening statements followed by a 
round of questions from members. Our witness panel--and I have 
already announced the panel. So I would like now to turn to Mr. 
Baertschiger, Oregon State Senator. And I am sure Congressman 
Walden from Oregon will get here for most of your opening 
statement.
    You are recognized for 5 minutes.

  STATEMENT OF HERMAN BAERTSCHIGER JR., SENATOR, OREGON STATE 
SENATE; MARY ANDERSON, MOBILE AND AREA SOURCE PROGRAM MANAGER, 
    AIR QUALITY DIVISION, IDAHO DEPARTMENT OF ENVIRONMENTAL 
 QUALITY; SONYA GERMANN, STATE FORESTER, MONTANA DEPARTMENT OF 
 NATURAL RESOURCES AND CONSERVATION, FORESTRY DIVISION; COLLIN 
   O'MARA, PRESIDENT, NATIONAL WILDLIFE FEDERATION; AND TOM 
  BOGGUS, STATE FORESTER, DIRECTOR OF TEXAS A&M FOREST SERVICE

              STATEMENT OF HERMAN BAERTSCHIGER JR.

    Mr. Baertschiger. Thank you, Chairman Shimkus, Ranking 
Member Tonko, and members of the committee. Thank you for 
letting me have the opportunity to testify before you today 
about wildfires and their impact on my constituents and the 
people of Oregon.
    The lingering effects of smoke and large fires impact 
thousands of people in my State every year. Immediate 
suppression of wildland fires during peak fire season would 
alleviate the impacts to our communities. In exchange for a 
suppression model, we must be conscious of the fact that our 
forests still need management, and fire is one of those 
management tools. But this can be accomplished outside of fire 
season by controlled burning. Smoke from controlled burns is 
far less impactful to my constituents than these large fires 
during the summer months.
    Other management activities, including commodity 
production, logging, fuel reduction, are also effective in 
reducing the risk of severe fire.
    My name is Herman Baertschiger, and I am an Oregon State 
Senator representing southern Oregon. My background is in 
forestry and wildland firefighting. In more than four decades 
of firefighting in the west, I have never seen a catastrophic 
high-intensity wildfire benefit our forests. However, I have 
seen many examples of low-intensity fire benefit our forests.
    Fire has always been with us, and that is not going to 
change, likely. Large fires have affected the American people 
throughout our history. The fires of 1910 in Idaho, Montana, 
and Washington that burned 3 million acres changed how the U.S. 
Forest Service addressed fires. In Oregon, the Tillamook fires 
that occurred in the coast range four times between 1933 and 
1951 forced Oregon also to address wildland fires. This 
approach is what, at times, is having us fighting large fires 
rather than suppressing small fires.
    The aggressive fire suppression model changed about 30 
years ago with the U.S. Forest Service. It changed from a fire 
suppression to a fire management. The comparison of fire 
suppression against fire management is best shown in a 
comparison of firefighting divisions of Oregon Department of 
Forestry and the U.S. Forest Service.
    Oregon Department of Forestry has always employed an 
aggressive initial attack and suppression approach. The 
comparison of lands managed shows a shocking disparity between 
the two styles of firefighting. The U.S. Forest Service 
protects about 17 million acres of Oregon forestlands. And so 
far in 2018, 300,000 of those acres have burned. Oregon 
Department of Forestry protects about 16 million acres of 
forestlands in Oregon, and so far, only 70,000 of those acres 
have burned.
    The two agencies protect about the same number of acres in 
Oregon but are having very different outcomes.
    Also, the human factor can't be ignored. With over 300 
million people in this country, we should expect more human-
caused fire starts. Some people say that 9 out of 10 fires have 
a human element.
    Due to severe wildfires, the lack of forest management and 
the different approach to firefighting, our communities have 
suffered weeks from toxic smoke. This year's citizens in 
southern Oregon endured 34 days of unhealthy air quality, and 
Travel Oregon estimated last year that $51 million was lost 
from smoke in tourism dollars. The Shakespeare festival in 
Ashland has lost over $2 million this year; Hell's Gate 
excursion, $1.5 million. Smoke has led to cancellation and 
delays of school activities, church activities, and other 
events.
    To provide our citizens with relief from catastrophic 
wildfire, Congress should take action to promote active forest 
management and provide oversight and assure accountability over 
the U.S. Forest Service.
    Managing fire during peak fire season to treat fuels is no 
longer acceptable. We cannot manage our forests during peak 
fire season with fire at the expense of the health and welfare 
and the economic viability of our communities. We have got to 
do something else.
    I appreciate this opportunity to testify, and I welcome any 
questions that you may have.
    [The prepared statement of Mr. Baertschiger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back his name.
    The chair now recognizes the chairman of the full 
committee, another Oregonian, Chairman Walden, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. I apologize 
for being a little late. We had the WRDA bill on the floor 
where a number of our provisions, including Safe Drinking Water 
Act and some provisions for drought relief in the Klamath Basin 
were before the House, so I needed to speak on that before 
coming here.
    I want to thank you for holding this hearing, and I want to 
thank our witnesses for being here.
    Today's hearing focuses on this topic that you have already 
heard from the Senator about, of great concern to Oregonians 
and those across the west who are experiencing terrible air 
quality. Hazardous, dangerous, unhealthy air quality smoke from 
these wildfires is literally choking people to death.
    In my home State of Oregon alone, we have already seen over 
700,000 acres destroyed by fire. These fires have left 
communities in my district blanketed with smoke and with the 
worst air quality in the world, period. Stop. Medford, Oregon, 
experienced the worst run of unhealthy air quality since the 
EPA began making such determinations in 2000.
    The leading offender is particulate matter. An article in 
the New England Journal of Medicine in March pointed out the 
robust evidence linking exposure to particulate matter to 
cardiopulmonary mortality and issues with asthma and COPD. I 
heard from a woman yesterday on a tele-town hall: COPD. She was 
just getting out of the hospital all as a result of this smoke.
    According to EPA research, premature deaths tied to 
wildfire air pollution were as high as 2,500 per year between 
2008 and 2012. Other research out of Colorado State University 
suggests it could be as high as 25,000 people per year die 
prematurely because of this smoke. This is a life-and-death 
matter in the west.
    Making matters worse, it is hard to escape the smoke even 
in your own home. Curt in Eagle Point dropped off his air 
filter from his CPAP machine. I have got a picture of it up 
there. That filter is supposed to last for 2 weeks. That is, I 
believe, 2 days. You can see it up there and how dirty it got 
within 2 days inside his home during these fires.
    Or take this car cabin air filter. It was replaced after 2 
months during the fire season. You can see up on the screen 
what a new one looks like. Two months, that is what it looked 
like in his car.
    Nearly three decades of poor management have left our 
Federal forests overstocked with trees and vegetation that fuel 
increasingly intense fires. Stepping up active forest 
management practices such as thinning, prescribed fire, and 
timber harvest, one of the best ways we could reduce the fuel 
loads and, therefore, the impact of the smoke from wildfires.
    Sadly, bureaucratic red tape, obstructionist litigation by 
special interest groups, it has all added up to make it very 
difficult to implement these science-based management 
techniques that we know work. And we are left to choke on the 
resulting wildfire smoke.
    In 2017, the number of fires started on lands protected by 
the Oregon Department of Forestry and the U.S. Forest Service 
Land were split nearly 50/50. Forest managed lands, however, 
accounted for over 90 percent of the acres burned. So that is 
the Federal ground. This is partly due to forest management but 
also how fires are fought.
    As fires are managed rather than suppressed and back burned 
acreages increased, there is a clear impact on air quality and, 
therefore, on the air quality and health of our citizens. These 
agencies need to do more to take this into account when they 
make their decisions.
    As devastating as it is in the summer months, fire can also 
be a management tool. We know that. Prescribed fire, after 
mechanical thinning, can help reduce fuel loads and reduce 
emissions by up to 75 percent, if it is done at the right time 
and the right way. State smoke management plans set the process 
for these burns with an aim to protect public health, but also 
limit the work that gets done. According to Forest Service 
data, smoke management issues limited between 10 and 20 percent 
of their prescribed fire projects last year in Oregon.
    I look forward to hearing from our witnesses today about 
your perspectives on these issues and how we get the right 
balance. I also want to thank Senator Baertschiger for joining 
us from Oregon. He is the co-chair of the bipartisan fire 
caucus in Oregon, has nearly 40 years of experience in wildland 
fire and forest management both. So thanks for flying out to be 
here.
    And just to conclude, I would like to share a message I 
received from Jennifer. She is a mother in Medford, Oregon. 
Jennifer said: As a native Oregonian, living in southern Oregon 
my entire life, I write to express my extreme frustration with 
Oregon's lack of forest management. This is now the third or 
fourth year that we are hostages in our own homes, that my 
children are robbed of being able to play outside. I absolutely 
hate that nothing is done to prevent this from happening.
    Well, we are here to help the concerns I hear from people 
like Jennifer and families across my district who have one 
simple message: Something needs to change.
    And in conclusion, I just got an email from a friend of 
mine in Medford, who is on the Shakespeare board, the Oregon 
Shakespearian Theater board in Ashland. And they said: I have 
exciting news. Our safety, health, and wellness manager sent 
this update. We are officially closing the smoke watch that 
started back on July 18 and returning to normal operations.
    I believe they had to cancel 25 outdoor plays at the Allen 
Elizabethan, and one for the Bowmer, for a total of 26 
cancellations for performances. And so this is a real bad thing 
for the economy. It is bad for our health.
    Mr. Chairman, I appreciate your holding this hearing, and I 
thank the witnesses for being here. And I yield back.
    [The prepared statement of Chairman Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Today's hearing focuses on a topic of great concern to 
Oregonians and those across the West who are experiencing 
terrible air quality and choking on smoke from wildfires. In my 
home state of Oregon alone, we've already seen over 700 
thousand acres destroyed and the fires are still burning.
    These fires have left communities in my district blanketed 
with smoke and with the worst air quality in the world. 
Medford, Oregon experienced the worst run of ``unhealthy'' air 
quality since EPA began recording in 2000.
    A leading offender is particulate matter. An article in the 
New England Journal of Medicine in March pointed out the robust 
evidence linking exposure to particulate matter to 
cardiopulmonary mortality and issues with asthma and COPD. 
According to EPA research, premature deaths tied to wildfire 
air pollution were as high as 2,500 per year between 2008 and 
2012. Other research out of Colorado State University suggest 
it could be as high as 25,000 people a year.
    Making matters worse, it is hard to escape the smoke, even 
in your own home. Curt in Eagle Point, OR dropped off this air 
filter from his CPAP machine. He had to replace it after 2 
days--it is supposed to last 2 weeks.
    Or take this car cabin air filter that was replaced after 2 
months during fire season. A new one looks like this. You begin 
to realize what people are suffering through.
    Nearly three decades of poor management has left our 
Federal forests overstocked with trees and vegetation that fuel 
increasingly intense fire seasons. Stepping up active forest 
management practices, such as thinning, prescribed fire, and 
timber harvests, is one of the best ways to reduce the fuel and 
the impact of smoke from wildfires.
    Sadly, bureaucratic red tape, and obstructionist litigation 
by special interest groups has made it difficult to implement 
these science-based management techniques. And we're left to 
choke on the resulting wildfire smoke.
    In 2017, the number of fire starts on lands protected by 
the Oregon Department of Forestry and those on U.S. Forest 
Service land were split nearly 50/50. The Forest managed lands, 
however, accounted for over 90 percent of the acres burned. 
This is partly due to forest management, but also how fires are 
fought.
    As fires are managed, rather than suppressed, and back 
burned acreages increase, there is a clear impact on air 
quality and our health. These agencies should do more to take 
that into account.
    As devastating as it is in the summer months, fire can also 
be a management tool. Prescribed fire after mechanical 
thinning, can help reduce fuel loads and reduce emissions by up 
to 75 percent. State Smoke Management Plans set the process for 
these burns with an aim to protect public health, but also 
limit the work that gets done. According to Forest Service 
data, smoke management issues limited between 10 and 20 percent 
of their prescribed fire projects last year in Oregon. I look 
forward to hearing from our witnesses today on whether these 
plans properly balance the risk from prescribed fire with the 
risk of far more intense wildfire.
    I also want to thank Senator Herman Baertschiger for 
joining us from Oregon. Senator Baertschiger is co-chair of the 
bipartisan fire caucus in Oregon, and has nearly 40 years of 
experience in wildland fire and forest management. Thank you 
for your participation and sharing your knowledge with us 
today.
    Just to conclude, I'd like to share a message I received 
from Jennifer, a mother in Medford. Jennifer said, ``As a 
native Oregonian living in Southern Oregon my entire life I am 
writing to express my extreme frustration with Oregon's lack of 
forest management. This is now the third or fourth year that we 
are hostages in our own homes, that my children are robbed of 
being able to play outside. I absolutely hate that nothing is 
done to prevent this from happening.''
    We are here today to help address the concerns I hear from 
people like Jennifer and families across my district who have 
one simplemessage: something needs to change.

    Mr. Shimkus. The gentleman yields back his time.
    The chair now would like to recognize Ms. Mary Anderson, 
mobile and area source program manager, Air Quality Division, 
Idaho Department of Environmental Quality.
    You are recognized for 5 minutes.

                   STATEMENT OF MARY ANDERSON

    Ms. Anderson. Thank you for the opportunity to provide some 
insight into how wildfires are impacting Idaho citizens.
    Wildfires are the single largest air pollution source in 
Idaho. In the past, Idaho would experience severe wildfire 
season with heavy localized air quality impacts every 3 to 4 
years. Now, we are seeing heavy regional air quality impacts 
every year from large, sometimes catastrophic wildfires in 
Idaho, central and northern California, Oregon, Washington, 
Nevada, and British Columbia. These catastrophic wildfires 
caused by fuels that have cumulated as a result of active fire 
suppression, drought, and climate change.
    In 2017, wildfire smoke caused widespread impacts starting 
in early August. And by the first week of September, smoke 
thoroughly blanketed all of Idaho, exposing many Idaho citizens 
to potentially serious health impacts.
    About 700,000 acres were burned in Idaho in 2017. Idaho is 
also surrounded by wildfires, meaning wind from any direction 
brought smoke into the State. Nearly 5.5 million acres burned 
in neighboring States and British Columbia in 2017. All of 
these fires had direct impacts on Idaho residents at one time 
or another throughout the wildfire season. We are seeing 
similar impacts this year.
    What I have described above is now the new norm. The public 
now experiences smoke impacts throughout the summer every year, 
with periods of very unhealthy to hazardous air quality 
conditions. To deal with the smoke impacts, the public wants 
information so they can make decisions to protect themselves 
and, in the case of schools, those they are responsible for. 
Telling them to remain indoors and limit exposure is no longer 
sufficient. In many cases, the air quality indoors is just as 
bad or worse than the air quality outside.
    Responding to wildfire smoke impacts requires significant 
resources from DEQ and other agencies throughout Idaho. To 
properly respond to wildfires and mitigate health impacts from 
smoke, the communities that are repeatedly hard hit from 
wildfire smoke must be made smoke ready before the smoke event 
occurs. This means working with communities to identify tools 
citizens can use to protect themselves from the smoke.
    An example of a smoke ready community action is identifying 
the sensitive population, such as elderly people with lung or 
heart issues, and purchasing a cache of room-sized HEPA filters 
prior to the wildfire season so they can be distributed at the 
start of the emergency. Establishing a smoke ready community 
must be done prior to the wildfire season in order to respond 
to the emergency in a timely manner.
    To be effective, smoke ready communities require funding 
similar in the way--similar to the way firewise programs are 
funded. Funding for both these programs would allow communities 
to prepare for wildfires from both the fire safety and public 
health aspect.
    We agree that prescribed fire is an important tool in 
reducing fuels that contribute to catastrophic wildfire, but 
prescribed fire also causes smoke that needs to be managed. 
When prescribed fire is being discussed as a way to mitigate 
wildfire impacts, it is important to remember that reasonable 
and effective smoke management principles and decisions must be 
used to truly lessen smoke impacts and not simply move smoke 
from one time of the year to another.
    To manage smoke impacts from prescribed burning, the 
Montana/Idaho Airshed Group was created. This group implements 
a smoke management program for organizations that conduct 
large-scale prescribed burning and the agencies that regulate 
this burning.
    Burn decisions in Idaho are very much driven and limited by 
the weather. Northern Idaho is very mountainous. Smoke from 
prescribed burning can sink into the valleys and impact 
communities. Using best smoke management practices requires 
good weather that will allow the smoke to rise up high into the 
atmosphere and disperse so as not to impact the public. The key 
to this airshed group is coordinating burn requests and 
approvals to looking at the regional picture, not just burns on 
an individual basis.
    The Airshed Group uses a meteorologist to provide a weather 
forecast specific to prescribed burning. A coordinator 
evaluates all burns that are proposed, other burning, and 
emission sources occurring in the area, current and forecasted 
air quality, to determine if and how much burning can be 
approved. This process helps to ensure that smoke does not 
accumulate in valleys and impact the public.
    DEQ works closely with the airshed group during the active 
burn season. We review the weather forecast, air quality data, 
and proposed burns, and provide recommendations to the airshed 
group on a daily basis.
    There is no short-term quick fix. We need to address all 
causes of wildfire and look at new innovative solutions and 
mitigation strategies to address the matter. The key to success 
will be working in partnership with all stakeholders, air 
quality agencies, State and Federal land managers, large and 
small private prescribed burners, the general public, 
environmental groups, and others who use burning as a tool. The 
only way to make progress is to have an open, honest, and 
trusting dialogue based on facts and science.
    Thank you.
    [The prepared statement of Ms. Anderson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. And the chair thanks the gentlelady.
    The chair will now recognize the ranking member of the full 
committee, Congressman Pallone from New Jersey, for 5 minutes.

            OPENING STATEMENT OF FRANK PALLONE, JR.

    Mr. Pallone. Thank you, Mr. Chairman, and thank you for 
letting me--I know--I was on the floor with our chairman.
    It has been a year now since this subcommittee last held a 
hearing on wildfires. And since that time, the same regions of 
the country are suffering due to the large number and size of 
forest fires, causing tremendous damage. And this is, once 
again, particularly destructive to Western States.
    We have all seen the devastating images of lives lost and 
homes destroyed. These extreme wildfires are also creating poor 
air quality in States far away from the fires.
    Last month, the National Weather Service found that smoke 
from western wildfires has spread as far as New England. And 
these wildfires are tragic, but they should not be a surprise. 
For years, scientists have warned that climate change was very 
likely going to contribute to the increased fire intensity and 
frequency that we are seeing now. That is exactly what we are 
seeing, and we are not going to improve the situation by only 
looking at forest management or timber harvesting practices.
    If this Congress wants to truly address the increase in 
extreme wildfires, we must act to slow the global warming that 
is driving changes in climate and weather patterns.
    Unfortunately, the Trump administration and congressional 
Republicans refuse to address climate change and have instead 
pushed policies that will exacerbate our climate problems. Here 
is my list of President Trump's most significant climate 
actions.
    First, he pulled the U.S. out of the Paris Agreement, 
giving up our spot as a global leader and turning his back on 
our allies. Then he proposed to replace the commonsense Clean 
Power Plan with a dirty power scam that lets polluters off the 
hook. The EPA even admits this proposal will result in 1,400 
more premature deaths every year. Third, President Trump 
proposed to relax standards for fuel efficiency in vehicles, 
hurting consumers and ensuring more climate changing substances 
are emitted into the air. And fourth, he doubled down on a 
loophole in the Clean Air Act that allows more efficient and 
polluting heavy duty trucks on our roadways.
    And then just this week, Trump relaxed controls on methane 
pollution from oil and gas operations and landfills. The 
President has also blocked all Federal agencies from 
considering or acknowledging the costs associated with climate 
change when making decisions, and he has proposed to cut funds 
for energy efficient programs and support for renewable energy. 
And finally, he continues to threaten to abuse emergency 
authorities to subsidize the oldest and least efficient coal 
plants in the country.
    President Trump and his administration are doing everything 
possible to increase emissions and block any attempt to slow 
the rate of climate change. The result is rising seas, extreme 
weather events, severe drought and, of course, extended and 
intense fire seasons. And these are costing lives, destroying 
property and infrastructure, and costing us billions in 
disaster assistance.
    And as we sit here, the southeast is about to be hit by 
another powerful hurricane devastating more communities. A new 
report from the researchers of Stony Brook University and 
Lawrence Berkeley National Laboratory finds that hurricane 
Florence is about 50 miles wider as a result of climate change. 
That means that hurricane can result in 50 percent more 
rainfall. Yet Republicans refuse to address climate change.
    Even here today, the focus is not where it should be. How 
many more of these events do we need before Republicans join us 
in taking decisive action to combat climate change? When are 
Republicans going to stop actively pursuing policies that make 
the problem worse?
    If we are serious about stemming the terrible growth of the 
forest fire season as well as these other natural disasters, we 
need to abandon the disaster that is the Trump administration 
climate policy, and we need to do it immediately.
    And with that, Mr. Chairman, I yield back. And thank you 
for the time.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes Ms. Sonya Germann, State Forester, 
Montana Department of Natural Resources and Conservation, 
Forestry Division, on behalf of the National Association of 
State Foresters.
    You are welcome and recognized for 5 minutes.

                   STATEMENT OF SONYA GERMANN

    Ms. Germann. Thank you, Chairman Shimkus, Ranking Member 
Tonko, Full Committee Chair Walden, Ranking Member Pallone, and 
members of the subcommittee. It is a true honor to be before 
one of the Nation's longest standing committees to discuss 
wildfire impacts to air quality and strategies we are 
undertaking to mitigate those impacts.
    My name is Sonya Germann, State Forester of Montana. And 
like Mr. Boggus, I am here testifying on behalf of the National 
Association of State Foresters. I am also a member of the 
Council of Western State Foresters, which represents 17 Western 
States and six U.S.-affiliated Pacific islands. I have spent my 
life in Montana in the past 12 years in forestry, with an 
emphasis on active forest management, and I am honored to share 
the Montana perspective with you here today.
    The 2018 fire year has been challenging, not only in 
severity and duration, but most importantly in the number of 
lives lost. There have been 14 fire-related fatalities, a 
devastating loss to families, the wildland firefighting 
community, and the greater public. Across the Nation and 
particularly in the west, wildfires are growing more intense 
and so large we are now calling them megafires.
    In Montana, our fire season is, on average, 40 days longer 
than it was 30 years ago. And as the chairman suggested, more 
than 7 million acres has burned since January 1 on a national 
scale. And let me put that in perspective for you.
    In the past 16 years, we have surpassed the 7 million acre 
mark eight times and the 9 million acre mark five times. In the 
10 years prior to that, we reached 7 million acres only once.
    Although the 2018 fire year in Montana has thankfully been 
relatively moderate, our citizens and wildland firefighters are 
still reeling from 2017, which was our most severe season on 
record since 1910 with over 1.2 million acres burned, which is 
an area roughly the size of Delaware.
    With severe fire years comes intense smoke. And according 
to the Montana Department of Environmental Quality, the air 
quality standards for particulate matter have been exceeded 579 
times for wildfire over the past 11 years, with 214 of those 
occurring in 2017.
    Fire is a natural part of our ecosystem. What is not 
natural are the unprecedented forest conditions we are facing. 
Nearly a century of fire exclusion has led to excessive fuel 
loading and changed forest types. These factors, in addition to 
insect epidemics, persistent drought, and climate change have 
resulted in a disproportionate amount of Montana's fire-adapted 
forests being at significant risk of wildfire. Today, over 85 
percent of Montana's forests are elevated wildfire hazard 
potential.
    As land managers, we understand the connection between 
fuels, wildfires, severity, and smoke. Consequently, we make 
concerted efforts to work with key partners to reduce fuels 
that in turn reduce wildfire risk and smoke-related impacts. 
Treatments like prescribed fire mechanical fuels reduction will 
not prevent wildfires from occurring but can influence how a 
wildfire burns. Experience shows that actively managed forested 
stands often burn with less intensity and produce less smoke 
than stands with higher fuel loading. Additionally, active 
fuels reduction can create safer conditions for wildland 
firefighters and may also offer crews opportunities to keep 
those fires smaller.
    Along with our key partners, we endeavor to get more 
prescribed fire and mechanical fuels reduction work done on the 
ground. And as Ms. Anderson described, we are a part of the 
Montana/Idaho Airshed Group. This group assures coordinated 
compliance with regulatory agencies and strives to help us 
accomplish more prescribed burning while complying with air 
quality standards.
    In Montana, proof is in the air quality data. Over the past 
11 years, prescribed fire has exceeded air quality standards 
only four times compared to 579 for wildfire. This group has 
been recommended as a model for other States to follow.
    And lastly, with over 60 percent of forested land in 
Montana managed by Federal agencies, we strongly support 
authorities that facilitate fuels reduction projects and allow 
them to be completed more quickly through collaborative action. 
The Good Neighbor Authority and categorical exclusions for 
wildfire resilient projects represent two such authorities.
    We strongly appreciate and value Congress' efforts to make 
authorities like these available to our Federal partners.
    In closing, my written testimony has been made available to 
you, and I look forward to answering any questions you may 
have. Again, thank you for the opportunity to testify before 
you today.
    [The prepared statement of Ms. Germann follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The chair thanks you.
    The chair now turns to Mr. Collin O'Mara, President and CEO 
of the National Wildlife Federation.
    You are recognized for 5 minutes. Welcome back.

                   STATEMENT OF COLLIN O'MARA

    Mr. O'Mara. Thank you, Mr. Chairman, Mr. Tonko, Chairman 
Walden. You have my prepared testimony.
    I actually want to have kind of a real conversation today, 
because I really appreciate the topic and actually focus on the 
health consequences. But the external debate on this issue has 
become a little ridiculous, right?
    One side is saying it is all about logging and, frankly, 
just kind of cutting everything down. The other side is saying 
it is all about climate. We need to actively manage and we 
actually have to address the climate stressors that are causing 
this system. And this is a more complicated conversation. It 
doesn't fit into the normal kind of right-left debate.
    You are going to have almost unanimous agreement on this 
panel on 80 percent of the recommendations. That doesn't happen 
before this committee all that often, having been in the room 
with the chairman a handful of times.
    One of the missed opportunities in the fire funding fix 
this year, and I am so grateful because so many of you played a 
constructive role in it, was delaying the funding for 2 years, 
to not have it take effect until 2 years. We need that money in 
Oregon right now. We need that money in California right now.
    And I get it. But leadership, when they jumped in, they 
didn't listen to some of you, and Congressman Simpson and 
others. It is billions of dollars of missed opportunity to do 
restoration work.
    And, look, the appropriation minibus is already moving. It 
is probably too far down the line. But there has to be a way to 
get a slug of money, because the Forest Service is basically 
out right now. They have hit the caps they would have hit at 
the end of the month. And if we don't get these projects on the 
ground, we are going to continue to have more and more of this 
kind of restoration deficit, if you will, that we are trying to 
undo. Because we have basically starved ourselves for 40 years, 
right? At least the last 25.
    And you are talking about a lot of funding. There are great 
reports. There is a great one just put out by Oregon State 
looking at how to get more prescribed burns on the ground.
    Look, there are things we need to do, like making sure that 
the ambient air quality standards aren't overly prohibitive and 
making sure that we are accounting for the impacts of 
prescribed burns in a way that is actually rational, and not 
discounting natural kind of anthropogenic emissions in a 
different way than we are treating manmade ones, especially if 
the manmade ones are going to save us 90 or 100 percent of 
emissions compared to the alternative.
    But most of the problem here is actually funding in 
collaboration. And Secretary Perdue put out a great report just 
a few weeks ago talking about shared stewardship, talking about 
how to use some of these tools that all of you put together in 
the last fire funding package and actually trying to get more 
projects on the ground. And there are things around good 
neighbor provisions that we absolutely have to fund. There are 
stewardship contracting provisions we have to fund. There are 
some mechanical issues that we could work through and actually 
use your help trying to make sure that the good neighbor 
provisions have the right accounting behind them so States are 
incentivized to do the work.
    There are some additional tools that folks like Congressman 
Westerman are working on, like Chairman Barrasso, and Senator 
Carper, some additional little tools on the management side.
    But this is one of those conversations, like, let's not 
score points on it, right? Folks are hurting right now. I 
talked to my friend who is an air director up in Oregon right 
now. They are trying to rewrite their smoke plans right now. It 
is a good collaborative process. It is a few years too late. I 
would have liked to have seen it a few years ago.
    The leaders that you have on this panel actually have a lot 
of the solutions. And so I am like if you do the talking 
points, you can't have this conversation without talking about 
climate. You got dryer soils. You got less snow pack. You have 
warmer temperatures. The fact that it is not a--I am going to 
steal your line, I apologize, that it is no longer a fire 
season, it is a fire year.
    This is a serious conversation. And I know there are a lot 
of other votes going on, but not a lot of folks are here right 
now. And so if there are folks that want to have this 
conversation in a real way--and it is not just the E&C. It 
affects Natural Resources. We obviously have jurisdictional 
issues all over the place.
    We got to fix the funding issue. That is the first thing. 
We have to figure out some of these collaborative measures and 
how we basically bolster the collaboratives in a big way, 
because the collaboratives are the way to get good products on 
the ground. There is huge opportunity there. And there are some 
commonsense things that could be fit into the farm bill.
    Advancing prescribed burns in a smart way, and there is 
some guidance--we don't actually need to change the Clean Air 
Act, but there is some guidance coming out of EPA related to 
how they actually measure different types of emissions that 
have to be fixed. I think Administrator Wheeler could get this 
done. I think, frankly, Gina McCarthy would have agreed with 
him on some of these things. This is one of those areas, again, 
that it is not particularly partisan, and frankly, getting 
those products on the ground.
    Because right now, it is easier to try to respond after the 
fact than it is to actually do the prescribed burn on the front 
end. Because it is just a headache. The level of review that is 
necessary to do it is complicated. These folks do it better 
than most places. The folks in the southeast are probably doing 
it the best right now.
    But there are models there that we have to figure out how 
to actually get off the ground, because the scale of 
restoration that we need is massive. We are gone from doing a 
few million acres here. We need tens of millions of acres of 
your active management across the board. This is a big 
conversation we need to have.
    We can't have this conversation without talking about 
acting on climate. I know it is a partisan issue. It shouldn't 
be. We need to figure out ways to reduce emissions, because 
they are heating up these systems and making them worse.
    There is a big oversight role for all of you too. I do 
worry about the fire funding fix when it kicks in. The extra 
money needs to go toward restoration. It needs to go toward 
active restoration, active management. It can't just go to 
other programs. That is going to require some oversight, 
because the way the language is written, it doesn't quite do 
that.
    And then finally, I would encourage, especially folks in 
the west, to try to figure out ways to get more members out to 
see the impacts. Because right now--I spend a lot of time in 
the west. I don't think folks can fully appreciate the level of 
devastation in the southern California airshed, in these 
States. Breathing the soot for day after day, this is a big 
issue. And at a time when we are preparing for massive 
hurricanes, this is the time for serious people. And I would 
love to work with all of you, because as the great American 
poet Elvis Presley said, ``a little less conversation, a little 
more action.''
    Thank you.
    [The prepared statement of Mr. O'Mara follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman's time expired.
    Defending my colleagues here, I think this is actually a 
pretty good turnout. We do have a bill on the floor. We do have 
a Health Subcommittee hearing upstairs. So this is not bad, 
so----
    Mr. Walden. Mr. Chairman, you might point out that this is 
a subcommittee too. When we are in full committee, all these 
seats are filled, as they were this morning. So just for the 
audience.
    Mr. Shimkus. I would agree.
    Reclaiming my time. The chair now recognizes Mr. Boggus, 
the State Forester and Director of Texas A&M Forest Service, on 
behalf of the National Association of State Foresters.
    You are recognized for 5 minutes.

                    STATEMENT OF TOM BOGGUS

    Mr. Boggus. Thank you Chairman Shimkus and Ranking Member 
Tonko and Committee Chair Walden. I am glad all of you are 
here. And I am glad to be here to talk about this important 
issue today on air quality and wildfire.
    My name is Tom Boggus, and I am the State Forester and 
Director for the Texas A&M Forest Service. I am here to testify 
on behalf of the National Association of State Foresters, where 
I serve on the--member of the Wildland Fire Committee, as well 
as the past president of the Southern Group of State Foresters, 
which represents the 13 southeastern States.
    I have spent 38 years in forestry and fire, and I am 
honored to share some of that experience with the subcommittee 
today.
    The NASF and the regional associations like Southern Group 
represent the directors of the Nation State Forestry Agencies. 
We deliver technical and financial assistance, along with fire 
and resource protection, to more than two-thirds of our 
nation's 766 million acres of forestland. We do this with 
critical partnerships and with investments from the Federal 
Government, including U.S. Forest Service State and Volunteer 
Fire Assistance Grants, which provide equipment and training to 
the firefighters who respond to State and private land where 
over 80 percent of our nation's wildfires begin.
    This has been a heck of a year across the country. You have 
heard that. And Texas was no exception. We had over 8,000 
wildfires burning over half a million acres so far in 2018. The 
fire activity impacts responders at local, State, and national 
levels.
    The first impact is to communities. And what many people 
don't understand and realize is that, in Texas, 75 percent of 
our wildfires occur within 1 mile of a community. Most of these 
fires, historically 91 percent, are suppressed by the local 
responders. The other 9 percent, when their capacity is 
exceeded, require local, State, and often national resources to 
control.
    Wildfires affect us all. I don't care whether you are rural 
or urban, local or State or national. At the State and national 
level, demand to respond does not go away. And you just heard 
from my colleague here that in the wildfire community, we have 
quit using fire season and we started using fire year, because 
it is much more accurate. Because there is a wildfire season 
somewhere, and wildfires are happening somewhere across America 
at any time.
    Fire has always been a natural part of the ecosystem in 
Texas, in the south, and, really, a lot of parts of the 
country. However, for many reasons, wildfires have become 
increasingly detrimental to the forests and communities around 
them, including the generation of catastrophic amounts of air 
pollutants. That is why we are here today.
    So what can we do to address the massive amounts of 
wildfire smoke? My State forester colleagues and I put a great 
deal of emphasis on proactive prescribed burning. During the 
times of year when fire risk is low, you have already seen it, 
where fire size and smoke emissions and community notification 
can be managed effectively as compared to an unplanned or an 
often catastrophic wildfire.
    In the southern part of the country, we have a long history 
of getting prescribed fire accomplished on the ground. We have 
formed a fire management committee in the States consisting of 
a fire director from each of the 13 States, and we work 
together on shared practices, best management practices. For 
example, we created the Southern Wildfire Risk Assessment 
Portal, or SouthWRAP. And it is especially important in an 
urbanizing State like Texas.
    We build and maintain strong partnerships with landowners 
and local governments in implementing partnerships with State 
environmental quality agencies, Federal land management 
agencies to get prescribed burning done and forest management 
done collaboratively.
    In Texas, unlike the west, 94 percent of our land is 
privately owned, and prescribed fire is primarily conducted by 
private landowners. Texas is a big and diverse State. And the 
reasons for conducting prescribed burning are just as diverse 
as our geography.
    We recently developed a State smoke management plan to 
provide best management practices for our landowners and these 
cooperators and certified burners. The plan provides resources 
for these professionals to utilize in order to minimize the 
smoke from their prescribed burns.
    Environmental regulations such as air quality are under the 
authority of the Texas Commission on Environmental Quality, the 
TCEQ. Now, that is a great conversation in the education 
process, but they are a great partner, and they understand and 
have said last week at a hearing in the State that we need more 
fire on the ground in Texas and more prescribed fire and not 
less.
    So once again, I want to thank you for this opportunity to 
testify and appear before you. I look forward to answering any 
questions. And if I can share more expertise that we have in 
Texas and the south related to wildfire, hazardous fuel 
reduction, and prescribed burning.
    Thank you, sir.
    [The prepared statement of Mr. Boggus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much.
    Seeing no other members of the panel, I would like to 
recognize myself 5 minutes to start the round of questions.
    And, Mr. O'Mara, I want to go with you just because of your 
opening statement. And I think you alluded to a missed 
opportunity in the minibus. I know you can fill the space, just 
briefly tell me, what was the missed opportunity?
    Mr. O'Mara. Yes. In the fire funding fix that was passed in 
March as part of a big budget deal, there was a provision that 
was snuck in at 3 a.m. that basically moved it from being 2018 
fiscal year to 2020 fiscal year. There is no increased funding 
through the fire fix for the next fiscal year. So you are not 
going to have the additional money that you all passed for 14 
more months. There is some supplemental money that folks here 
and Udall and Murkowski put in, but the actual tool isn't 
available when we are having these horrible conditions.
    Mr. Shimkus. Great. Thank you very much.
    Let me go to Ms. Anderson and Ms. Germann. Compare and 
contrast for me the risk challenges and the environmental 
quality aspects of a forest fire and the resulting smoke and 
stuff versus auto emissions in coal-fired power plants.
    Ms. Anderson. So in Idaho, we don't have any coal-fired 
power plants. The next biggest emitter are--we do have quite a 
bit of open burning. We have agricultural burning, backyard 
burning, a lot of auto emissions. We don't have a lot of 
industry in Idaho. So by far, the wildfire emissions are the 
biggest air pollution source that we just can't manage. We have 
to react to.
    Mr. Shimkus. Ms. Germann.
    Ms. Germann. Yes. Thank you. I lack the specifics on any 
type of coal emissions. But I can say anecdotally, certainly, 
wildfire smoke is, by far, the largest polluter within the 
State.
    Mr. Shimkus. Great.
    Let me go to Mr. Boggus. In your testimony, you say that, 
``Our forests are currently more fire prone than ever.'' I 
think Mr. O'Mara may have alluded to that. Some of the opening 
statements would.
    Why do you believe that is the case?
    Mr. Boggus. We need more active management. And I think 
several people on the committee have alluded to that. And I 
think when you have a built up of fuel--and what we haven't 
even really talked about is the land use changes that have 
happened. We have got more people living in and around our 
forests, but the fuel loads are increasing every year.
    Mr. Shimkus. And when you use that terminology for, the 
fuel load is increasing, what are you referring to?
    Mr. Boggus. There is more available to burn in the woods 
than there ever has been.
    Mr. Shimkus. So, Mr. O'Mara, I am not picking on him. He 
mentioned the threat of clear cutting. We are not talking about 
clear cutting large swaths of ground. We are talking about 
what?
    Mr. Boggus. No. We are talking about active management, 
forest management of the resource.
    Mr. Shimkus. Removing some of those fuels.
    Mr. Boggus. Yes. That doesn't mean harvesting, that doesn't 
mean thinning. But that means keeping forests healthy. And I 
have great examples, and we won't have time to get into them, 
but examples in Texas where a managed forest, even if you have 
severe drought or you have wildfires, the managed forests bear 
better and you don't have the catastrophic damage that you do 
to wildlife habitat and the resources that you do with 
unmanaged forests.
    Mr. Shimkus. Let me go to Mr. Baertschiger--Senator, I am 
sorry--for that same question.
    Mr. Baertschiger. Well, from a fire science perspective, 
you always have to remember, you have to have drying of the 
fuels to a point where they can be ignited and sustain 
ignition, and you have to have ignition. You can have the 
driest and even huge fuel loadings, and if you don't have 
ignition, you have no fire.
    And so when I talk about the human element, that is 
something that I have been tracking now for about 10 years of 
really looking at it. So we are having more and more of these 
fires that are caused by the human element. And when we get 
more and more fires, then we spread our resources and we can't 
concentrate on putting one out because it is kind of like 
whack-a-mole.
    Mr. Shimkus. Of the fires we are experiencing, 
percentagewise, how much are natural caused and how many are 
caused by human intervention, a fire not left, or someone--we 
have had some intentional fires set.
    Mr. Baertschiger. Yes. When I referred to human cause, I am 
not talking about an arsonist. I am talking about it can be a 
power line failure, it can be a chain dragging from a vehicle 
down the road. It is something that has to do with a human, 
that we wouldn't have that fire if we didn't have that human 
element into it. And it is getting close to 9 out of 10 fires.
    Mr. Shimkus. OK. Great.
    My time is close to be expiring. I will turn to the ranking 
member, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. And again, welcome, to all 
of our witnesses. Thank you for your expert testimony.
    And, Mr. O'Mara, you made the observation that a great many 
of us agree about the severity of the problem and the need to 
move forward. And I am hoping that somehow we can be inspired 
to come up with solutions that incorporate the professionals 
that manage these resources in such an outstanding manner.
    I want to start with the big-picture question before we get 
into the specifics on forest management. How important is 
addressing climate change which we know contributes to 
conditions that exacerbate the number and severity of these 
fires for a long-term fire mitigation and our forest management 
strategy?
    Mr. O'Mara. Look, we have to address the underlying 
stressors of the system long term. Those aren't improvements 
that will happen overnight. There are a lot of things we have 
to do in the near term. But if we want to have long-term kind 
of sustainable health, we have to bend the curve on the warming 
planet.
    Mr. Tonko. And in March, Congress passed the fiscal year 
2018 omnibus appropriations bill, which included changes to how 
we fund the United States Forest Service's fire response 
beginning in 2020. And you alluded to that funding.
    Does everyone agree it is important to provide greater 
funding for more proactive forest management to reduce the 
risks of these large wildfires?
    Mr. O'Mara. Absolutely. I think the more that we can do, to 
my colleague's point, thinking about private lands, State 
lands, Federal lands--these are the same landscapes. The 
ownership might be different, and I do think providing 
additional funding for certain tools like prescribed burns 
could be very effective.
    I actually don't think that the fix itself is going to end 
up being sufficient long term, even just given the scale of 
the--we are talking another 10 million acres this year probably 
by the time we are done. We are escalating in a pretty 
concerning way. And I think you are going to need more money, 
frankly; not less.
    Mr. Tonko. So is that the additional work that we need to 
secure here, or is there something more than just the dollars 
that are required as we go forward with the fix?
    Mr. O'Mara. From my point of view, I think there are 
additional tools that we can provide. I think there are some 
very important tools that were provided as part of the funding 
fix in March.
    A few of the ones that just kind of come to mind, top of 
mind, is there is like the collaborative forest landscape 
program that is a very effective tool that is in the current 
draft of the farm bill, assuming that gets done. There are some 
things around funding disease and infestation. There are things 
around Good Neighbor Authority, like you mentioned, making sure 
that works for everybody, including tribes, including other 
partners, counties in some cases that are bigger.
    There are some innovation programs for trying to have 
markets for some of these products, because one of the worries 
I have is that if we don't create robust markets and trade 
comes into this, because, a lot of the timber guys are 
struggling right now because the markets are closing, in China 
in particular. And so there is a bigger conversation with the 
economic consequences, making sure they have a place to put 
this material into good use.
    Mr. Tonko. Thank you.
    And based on the recommendations of NWF's Megafires report, 
do you have other suggestions on how Congress and the 
administration can help reduce the threat of wildfires?
    Mr. O'Mara. I would encourage this committee to convene 
some of the stakeholders and the agency heads that are 
involved. Secretary Perdue and his team have done a really nice 
job, Acting Director Administrator Christiansen and Jim 
Hubbard.
    I think pulling together some folks at EPA and having 
conversations about how we encourage more prescribed burns and 
the way they are protective of public health, having some more 
clear guidance could be helpful. And then also highlighting the 
success of particularly the Montana-Idaho collaborative event, 
because I do think that is a model that could be replicated in 
other places. There is good collaborative in California as well 
that could be replicated. But we have to elevate these best 
practices in other places, because we are going to see the 
impacts get worse over time.
    Mr. Tonko. And a few people have mentioned forest 
provisions included in the House farm bill, H.R. 2, although 
there have been criticisms that they go too far in undermining 
environmental laws, including NEPA and the Endangered Species 
Act.
    Do you have any thoughts on those provision?
    Mr. O'Mara. Yes. I am happy to provide additional detail, 
kind of point by point on them. I think there is a series of 
them that are very bipartisan. I think there are a few that 
probably go a little too far in some of the categorical 
exclusions. We probably should be using the ones that we have 
right now. I think the one that was passed before was the most 
important one from March.
    And I think the more that those conversations are being 
directed by the science, by the experts, the better. But I do 
think there is a suite of four or five of them that easily 
could move through this farm bill. And I would love to work 
with you offline to tell you exactly which ones those are.
    Mr. Tonko. Sure. I appreciate that.
    With that, Mr. Chair, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The chair recognizes the chairman of the full committee, 
Mr. Walden.
    Mr. Walden. Thank you again, Mr. Chairman. Thanks to my 
colleagues for participating in this hearing and to all our 
witnesses for being here today.
    I want to talk about some of the issues that we have run 
into, some of the data that we have. According to the Georgia 
Institute of Technology, when they did a study on this, found 
that wildfires burning more than 11 million acres spew as much 
carbon monoxide into the air as all the cars and factories in 
the continental U.S. during those same months. I am sorry, that 
was California Forestry Association. You are probably familiar 
with these data points.
    And the Intergovernmental Panel on Climate Change, the 
IPC's fourth assessment report on mitigation said in 2007, ``In 
the long term, a sustainable forest management strategy aimed 
at maintaining or increasing forest stocks while producing an 
annual sustained yield of timber, fiber, energy from the forest 
will generate the largest sustained carbon mitigation 
benefits.''
    So, basically, healthy green forests sequester carbon. 
Dead, dying, old ones and ones that burn and re-burn actually 
emit carbon.
    So one of the provisions in the farm bill is something that 
we do on those other landscapes you referenced, Mr. O'Mara, and 
that is, after a fire, you harvest the burn dead trees where it 
makes sense and you replant a new green forest which will 
sequester carbon.
    Is that one of the provisions your organization opposes or 
supports?
    Mr. O'Mara. No, no. We have been supportive.
    Mr. Walden. Of the House farm bill provision?
    Mr. O'Mara. And we just want to make sure we are planting 
kind of smartly in terms of what is going to be sustainable in 
the long term.
    Mr. Walden. Sure.
    Mr. O'Mara. Oh, no. Absolutely. Yes. Absolutely.
    Mr. Walden. Yes. because it will be the types of trees for 
that area and the environment and all that. We got to be smart 
about it.
    But what I hear, and, Senator, you may want to speak to 
this, because you both have been on the forest management side 
and had a career on the forest firefighting side, so you have 
seen both. Tell me what happens in these fires the second go-
around after the trees on Federal ground have not been removed, 
the burned dead ones. What happens there when a fire breaks out 
the second time, which often is the case?
    Mr. Baertschiger. Well, on Forest Service lands, they are 
not going to replant after a fire. So when you have the first 
fire go through, the mortality rate of the live trees is pretty 
high. The second time or the third time it goes through, it 
takes out the rest of the trees. So there are no trees to cone 
out. Cone out means when a tree is starting to die, they will 
drop cones and reseed and start all over again. But after the 
second or third burn, there are no trees to do that. And so it 
changes the entire ecosystem of that forest. You will not have 
the same forest that you had. And that is what we are seeing 
in--and the dirt. Yes. Catastrophic high-density fire.
    Mr. Walden. This is the dirt which remains, which is called 
ash.
    Mr. Baertschiger. Yes.
    Mr. Walden. And on the second fire, doesn't it make it even 
harder to maintain any kind of vegetation, frequently, because 
it burns the soils, it sterilizes the soil so deeply?
    Mr. Baertschiger. Our common terminology is it nukes the 
soil.
    Mr. Walden. Nukes the soil. How far down will it nuke the 
soil on a bad fire?
    Mr. Baertschiger. Just depends how hot it gets. And in 
southern Oregon, northern California where we have extremely 
high fuel loadings, in other words, tons per acre, we have a 
very hot, hot, hot fire. We can have 400-foot flames from some 
of those fires.
    Mr. Walden. Four hundred feet high?
    Mr. Baertschiger. Four hundred feet high, the flames. So 
depending on the severity, the hotter the fire, the deeper it 
is going to go into the soil. It can go pretty deep.
    Mr. Walden. Mr. O'Mara, I fully agree with you on the need 
to solve the fire borrowing issue. I have been an advocate of 
doing that from day one. It makes no sense. I am told there are 
statistics that--it costs four to five times as much to fight a 
fire as it does to do the kind of work you and I agree needs to 
be done on the forest.
    I had somebody in region 6 Forest Service at one point tell 
me 70 percent of the Forest Service budget for these projects 
goes into planning, planning and appeals. And it seems like we 
have got a broken process, then, if all the money is going into 
the planning and not going to the ground. Do you agree?
    Mr. O'Mara. Yes. And I think there are two issues there. 
One is that I think there is some redundancy in the planning 
process. There are some things they could be streamlining. We 
are not bolstering the collaborative enough. If we have to go 
through a collaborate process, there should be a way of----
    Mr. Walden. I was a cosponsor of that legislation to do 
landscape scale collaboratives that we are using in Oregon 
today.
    And I think you said something too about we got to do 
bigger expanses on these collaboratives, right? Or on the 
treatment, because we are millions of acres behind.
    One of the other provisions in the farm bill would extend 
the categorical exclusions out to 6,000 acres. We have got 
millions we need to do. Three thousand is currently on the 
books, but only on certain forests in certain States have 
certain governors identified certain lands.
    So in southern Oregon where the Senator is from, our 
Governor didn't designate any of those lands. But the 
provisions in the farm bill in the House would allow for a 
6,000-acre CE where you could go in and begin this catchup 
work. And so I am hopeful we can get that into law.
    Our committee--while we want to believe we have complete 
jurisdiction over every issue on the books in the Congress, and 
I think we would be better off if we did, doesn't fully have 
Forest Service jurisdiction, but this is our hook, because what 
is happening on Federal lands is dramatically, dangerously 
affecting the health of our citizens, and that is why linking 
to the air quality is so critical.
    Do you want to respond?
    Mr. O'Mara. Just one thing. Your point on the carbon 
emissions, in 20 to 30 percent of the global solution could 
come from repairing these kind of natural systems.
    Mr. Walden. Absolutely.
    Mr. O'Mara. It could be 10 to 15 percent of this country. 
When you are talking about the impacts just to the forests for 
the last few years, you are talking 36 million cars. Right? 
This is one of the most potentially bipartisan ways we restore 
our forests, we reduce emissions. It is a win for everybody.
    Mr. Walden. And you haven't talked about the habitat, the 
water quality, et cetera, et cetera. My time is expired. The 
chairman has been very generous. Thank you, Mr. Chairman.
    Mr. Shimkus. The chairman is always generous to the 
chairman. So the chair now recognizes the gentleman from 
California, Dr. Ruiz, for 5 minutes.
    Mr. Ruiz. Thank you very much. And chairman, I agree with 
you, this is a definite public health concern. And there are 
two main points: One is that it is a public health concern, 
just recently in the fires in my district, I had to give a 
warning on social media to anybody who can smell smoke or see 
ash, especially vulnerable populations, the older, the young, 
and people with lung illnesses, that they should be inside in a 
closed air conditioned unit.
    The second main point that this tells us is that these fine 
particles, particle matter 2.5 microns and substance from a 
fire in California can travel clear across the country. So 
whether you are in a fire-prone State or not, it is an American 
issue and all of our public health can be in jeopardy.
    As we sit here today, there are 17 active wildfires burning 
across the State of California. The ongoing wildfire season has 
resulted in over 1.4 million acres burned, and the worst is 
likely yet to come due to climate change. As we know, that 
climate change can fuel the severity, frequency and the size of 
wildfires by increasing the duration of droughts, causing long 
stretches of low humidity and high temperatures, and initiating 
early springtime melting, which leads to dryer lands in summer 
months. So we need to address and recognize climate change and 
do everything possible, or else we are not being as effective 
as we can.
    In August, the Cranston fire burned over 13,000 acres in my 
district outside of the community of Idyllwild. This fire 
exposed the residents of those mountain communities to numerous 
risks beyond just the flames themselves. While the fire burned, 
residents across southern California were subjected to 
increased air pollution as the smoke traveled across the 
region; these are kids with asthma; elders with COPD; people 
with pulmonary fibrosis, et cetera, were having more shortness 
of breath, visiting emergency departments, requiring more 
intensive care.
    The smoke and pollution from wildfires can affect 
populations far removed from these fires themselves. The fires 
in California can cause vast clouds of hazardous smoke that can 
affect the air quality for residents in Arizona, and Nevada and 
further east.
    So wildfires are regional disasters with national 
implications. And earlier this year, my Wildfire Prevention Act 
was signed into law, which extended the Hazard Mitigation Grant 
Program to any fire that receives a fire management assisting 
grant. Previously, this funding was only available to declared 
major disasters and not fire. Hazard Mitigation Grant Program 
funds may be used to fund projects that will help prevent and 
mitigate future fires. Some examples can include receding 
construction of barriers, hazardous fuel reduction or 
reinstalling ground cover. So Mr. O'Mara, can you speak to 
examples of mitigation projects that can be taken in the wake 
of wildfires that would be most helpful to preventing a repeat 
event?
    Mr. O'Mara. This is one of those great examples of an ounce 
of prevention would be worth a pound of cause. There are things 
you do on the landscape. You talked a lot about prescribed 
burns, you talked a lot about active management practices, they 
are ecologically sound, but there is also some common sense. We 
were building further and further into the wildland urban 
interface.
    Mr. Ruiz. Right.
    Mr. O'Mara. And you get folks that are building up into the 
hills. There is some common sense that we are putting people in 
harm's way. And I do think there has to be some kind of 
accounting for that, and making sure we are not putting 
additional folks in harm's way. It is unfortunate in some 
cases. These are beautiful places, but we allow people's desire 
to live in the middle of the woods.
    Mr. Ruiz. What are some specific examples that households 
can do and that we can do as policymakers?
    Mr. O'Mara. Sure, there are things on building codes, 
making sure more fire resistant products and things like that, 
and some States have done that, or some local governments. 
There are things in siting that can be incredibly helpful. 
Making sure climate science is part of your planning process. 
There are a wide range of things that have people in less 
harm's way.
    Mr. Ruiz. Ms. Germann, as a State forester, can you give 
examples of how you would use additional hazard mitigation 
funds to prevent future wildfire damage?
    Ms. Germann. Yes, thank you. I can think of several. And I 
will speak specifically to working on private lands. Any 
funding that we get through State and private forestry, we are 
targeting lands within the wildland urban interface to work 
with landowners to reduce the fields in and around their home, 
and educate them on things like the home ignition zone. And we 
are finding that a lot of fires, homes also burn because of the 
expanse around the home, if they are not necessarily going to 
be planting fire resistant material, or shrubs, we try to work 
with people to educate them on the best type of landscaping 
that they can have. So it is going to take a couple of things, 
fuels reduction outside of that home and ignition zone and also 
work within and around homes.
    Mr. Ruiz. It is amazing to see the photos of the houses 
that were spared because of what they did around their house to 
mitigate the propagation of fires, it works, it definitely 
works. I yield back.
    Mr. Shimkus. The gentleman yields back. The chair now 
recognizes the vice chairman of the subcommittee, Congressman 
McKinley from West Virginia, 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    Unfortunately, the ranking member from New Jersey has left. 
I wanted to thank him for his opening statement, because it 
gave us--those that are here--a little snapshot of what life 
could be like after November, if he becomes the chairman, a 
diatribe of challenging President Trump for everything on 
climate change. It just shows that such a distraction is going 
to take place in this committee in the years ahead when we try 
to deal with all the matters that come before this committee.
    And perhaps it was just meant to be a distraction from the 
economic insurgence that has taken place across this country. 
And I appreciate you, Senator from Oregon, that you didn't 
blame President Trump for one of those nine of ten fought fires 
being started. He got blamed for waters rising in the oceans, 
blaming Hurricane Florence. It is just inexcusable, but that is 
what we are going to see. So it is a little vignette of what we 
might be able to see in the future.
    My question--further with remarks would be, we had some 
discussion a couple years ago about the CO<INF>2</INF> 
emissions out in the atmosphere. And I quoted O'Mara, I quoted 
from Al Gore's book that the largest producer of the 
CO<INF>2</INF>s into the atmosphere is not from coal, it is 
coming from the deforestation of tropical rain forests. So the 
idea of what we are seeing in Oregon, California and elsewhere 
is we are contributing to this. That is why we need to address 
those problems and solutions so that we are not allowing this 
uncontrolled burn in our forests and allow that to take place.
    Now, I go to West Virginia and there we have the Mon, which 
is about 1 million acres. Like I say, Mr. O'Mara, with all due 
respect, it has been groups like yours and others that have 
prevented the logging in the Mon forest. It is a million acres, 
and they have only received about $1 million worth of harvest. 
Think about that: $1 per acre is all they are getting out of 
that forest. But yet, you go to the Allegheny Forest in 
Pennsylvania, and it is getting $12 per acre. So we think about 
what the situation is we have in the Mon. I want to learn from 
what testimony has been given here, that we may be sitting on 
something that is a very aging force in West Virginia in the 
Mon. And it is a tinderbox, because people are preventing us 
from logging and perfecting the situation that we have in West 
Virginia.
    So I am looking for some guidance as to how we might be 
able to approach this, because I am afraid we are going to 
start experiencing the same problem in West Virginia in the Mon 
that you all were experiencing out west because environmental 
groups do not want to have--I have got here, the West Virginia 
legislature was trying to do some in the State forest, but the 
environmental groups prevented that from happening.
    What advice can you give us for other areas? We have seen 
the devastation and we have seen the collection that the 
chairman has of soot from out west, how do we prevent that from 
happening in the east as well? What would you suggest, any of 
you? Don't be shy. There is nothing we can learn?
    Ms. Germann. Is the question what would we----
    Mr. McKinley. What would you recommend? How should we go 
about this, because the National Forest, because of the 
environmental movement, is preventing us from thinning that and 
addressing the problem? We are only getting one-twelfth of the 
wood products out of the Mon that people are getting at other 
national forests. It is becoming a nursing home for wood.
    Ms. Germann. If I may, I think something that is happening 
right now, and I think you see it through the panel and Mr. 
O'Mara and my colleague, Mr. Boggus, we are talking about a lot 
of the same things. I think there is an opportunity that is 
happening right now is we are all interested as land managers, 
and as people who are interested in getting restoration and 
protecting water quality and air quality. We are wanting to 
focus on taking a cross-boundary approach. So we call it ``All 
lands, all hands.'' I think that is something we talk about 
across the Nation. But we have this opportunity right now to be 
doing more, but we have to be making sure that we are not only 
going to be doing more on private lands, we have to have the 
funding through our agencies for State and private forestry 
within our State. Other things like Good Neighbor Authority. So 
it is an excellent partnership between the Federal Government 
and the States. Working with collaboratives, working with local 
governments----
    Mr. McKinley. Again, those are great ideals, but it is not 
happening. So Mr. Boggus, what would you suggest? What do we 
have to do to try to encourage the Forest Service to eliminate 
these hazards so that we don't experience this same problem?
    Mr. Boggus. Well, you have to keep the dialogue open. We 
are an early adapter, Texas is an early adapter for the Good 
Neighbor Authority, where you have these agreements--even 
before there was Good Neighbor Authority, we went into 
agreement with our State--our national forest folks in Texas, 
and to help them with prescribed burning. We had an agreement 
in 2007 and 2008 for that. Then we had the Good Neighbor 
Authority, which means the States can help the U.S. Forest 
Service get management done on their lands. And you all's thank 
you for the fire fix as has been said before, but that is a 
great help to us, because a lot of times, the money we have and 
for reaching and technical assistance and the money that people 
don't talk about is the State and private funding that comes 
from you all; the borrowing came from State and private often, 
and so that is where we can reach out and do more on U.S. 
Forest Service lands, but also on technical assistance and 
helping the State and the private landowners across the State, 
which we heard was most of the land. Most of the forest land in 
this country is on--what you are talking about in the east and 
the south is on private lands. And those folks need technical 
assistance.
    So these programs like stewardship, Urban and Community 
Forestry and the Good Neighbor Authority help us put things not 
just in a plan, but put them on the ground and manage and make 
our forest healthier.
    Mr. McKinley. Thank you very much. I yield back.
    Mr. Shimkus. The gentleman's time has expired. The chair 
recognizes the gentlelady from Colorado, Ms. DeGette, for 5 
minutes.
    Ms. DeGette. Thank you, Mr. Chairman. I know some of you 
were worried there weren't a lot of members here, but you had 
members represent the entire Rocky Mountain west and west 
coast, so that is pretty darn good, because we are the ones 
dealing with these issues every day.
    I just want--I think Mr. O'Mara is correct, we don't have 
any silver bullets for solving this problem. Being from 
Colorado, I see this firsthand, and believe you me, we couldn't 
see the front range for most of August in Denver because of the 
smoke.
    Then I went to Oregon, and the same smoke was in Oregon, 
and then I went to Vancouver and it was still there for 1 
month. This is not normal summer weather for us in the West. 
The thing we have to realize is there is no one solution. It 
would be super great if we could just go in and clear out all 
of this extra wood, and then we wouldn't have as big of a fire 
risk. Number one, that is not the best management technique for 
a lot of these areas. But number two, for those of you not from 
the Rocky Mountain west and west, it is millions and millions 
of acres that we are talking about. There is no way, even if we 
had adequate funding, we could go in and clear out this wood.
    Secondly, in some of these areas, we really do need to have 
prescribed burns. We need to have forest management programs 
that are appropriate for those forests. And I am delighted to 
see our whole panel sitting here today agreeing with these 
concepts.
    So what can we do? There are a couple of things. Number 
one, several of you said we have to have adequate funding. And 
this is a bipartisan issue for those of us from the west where 
our colleagues don't seem to understand how important funding 
is for forest management, no matter what those techniques are.
    The second thing is, we have to think about long-term 
planning. We are not going to be able to solve this air quality 
issue, or the other related issues, without the long-term 
planning.
    Mr. O'Mara, you talked about the dry soils, the water, and 
everything else from climate change, but there are other issues 
too. Let's see if they have my picture, if the clerk has my 
picture to put up. This is a picture that I took in the Pike 
and San Isabel National forest last month. It is always really 
fun to go hiking with me, because I stopped and said take a 
look at this forest. See the trees on the ground? Those trees 
would not have been on the ground 10 years ago, that is 
Ponderosa pine, it was all killed by the pine beetle, and they 
died and they fell down on the forest floor. Then you can see 
the aspens now that have grown up because of the death of the 
pine forest. But then, if you look closely you can see the new 
baby Ponderosa pines growing up.
    So this is something the forest has tried to do to 
naturally recover from the pine beetle infestation. In 
Colorado, we think it is a miracle that all of these millions 
of acres that look like this have not burned. We have had some 
devastating fires the last few years, but we did not have 
devastating fires this year. I don't know why, I think probably 
luck. But if you want to solve this problem--so these could all 
be burning.
    Now, we all said in Colorado, we need to be able to remove 
this dead Ponderosa pine, and we did in many areas. But it is 
millions of acres; it is wilderness areas; it is national 
forests; it is BLM land. So we have to think of ways where we 
are going to aggressively address climate change issues, 
because it is not just the carbon emissions that we are seeing 
and everything else, it is a whole ecosystem that is impacted.
    So I just really want to say, Mr. Chairman, I so appreciate 
you having this hearing. And I think that there are ways that 
we can aggressively work in a bipartisan way. But to think we 
can go down and clear out all the deadwood or just have a few 
controlled burns, that is not going to solve this problem over 
this entire massive and beautiful region. Thanks, and I yield 
back.
    Mr. Shimkus. The gentlelady yields back. The chair 
recognizes the gentleman from Texas, Mr. Flores, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman. This has been an 
enlightening panel today. Mr. Boggus, I have a couple of 
questions for you if we could. We have got something called 
Good Neighbor Authority, and we have had several people mention 
that, but nobody's described it. Can you describe Good Neighbor 
Authority for us?
    Mr. Boggus. I guess the easiest answer is, it is a 
partnership, an agreement we go into with the U.S. Forest 
Service where they often have either lost the expertise or do 
not have the personnel available to help them with timber 
sales, with prescribed burning. And now you have added road 
building in the latest version into there to help with the 
management activities on the U.S. Forest Service lands, so we 
go in partnership with them and help them manage the Federal 
assets, the Federal force.
    Mr. Flores. And how does this authority work for the State 
of Texas? You are the chief forestry officer in the State, how 
does that work for you?
    Mr. Boggus. It is a dialogue that has to go on, and it is 
something you learn as you go. Like I said, we were an early 
adaptor, we saw the benefits of this. In Texas, again, we are a 
private property State, the U.S. Forest Service is only 635,000 
acres of forest land in Texas. But that is extremely important 
because the things that happen on that forest impact the 
private landowners around the forest. So with insects and 
disease, with fire and so forth and so, we work with them 
because we want to help make sure there are some other 
programs. Like we had the southern pine beetle prevention 
program; it is Federal funding through the U.S. Forest Service 
that we would help with those private landowners get their 
property thinned and managed around, we kind of call it beetle 
proofing around the U.S. Forest Service land. We also now, with 
Good Neighbor Authority, we can work with the U.S. Forest 
Service partners and get those same--on the inside of the red 
paint, and get those protected as well and help do some 
thinning, and keep the forest healthy, that is the whole idea, 
we want to keep our forests healthy.
    Mr. Flores. In your testimony, you mentioned that last 
year, Texas used prescribed fires on over 200,000 acres. And 
you also said that burning like this is pretty common across 
the south. Some States even do high amounts of prescribed 
burning. What are the challenges that exist with--well, let me 
rephrase the question. What are the challenges of dealing with 
prescribed burns versus the challenges of dealing with 
uncontrolled burns?
    Mr. Boggus. A wildfire is much more challenging and much 
more destructive. Now, a prescribed fire or controlled burn, 
says what it is, it is prescriptive, you have very set weather 
parameters, it is lower intensity. So you have less particulate 
matter, and so what it does is, it fireproofs communities, it 
fireproofs the area, so it keeps a catastrophic wildfire from 
happening. It prevents that fire. It is almost like saying 
fighting fire with fire, because you are making it where the 
fuel loading is less, you are keeping those four. It is a fire 
ecosystem in Texas so we are keeping those forests and those 
lands healthy, and keeping the fuel loading down. So if you 
were to have a wildfire break out, an uncontrolled, unplanned 
fire break in through there, it would be much less destructive.
    Mr. Flores. And then you also do this adjacent to 
communities in order to protect those communities from the 
impact of the wildfire. What do you do to protect the community 
in the controlled burn process?
    Mr. Boggus. Well, obviously, the biggest thing we do, and I 
guess I will give an example, is our Jones State forest in 
Texas, which is almost in the city limits of Houston, so it is 
surrounded by subdivisions. So it is a very difficult place to 
burn. We have to plan, and part of these things is working with 
our environmental quality folks, and also working with the 
community around there, the landowners and homeowners around 
there, for them to understand if they do have issues, breathing 
issues, when we are going to it. So there is a lot of 
communication back and forth that those homeowners and 
landowners to say here is what is going to happen. If at first, 
if they are urbanized, urban dwellers, they are not used to 
seeing smoke. If you didn't grow up in the country and burning 
your leaves and seeing smoke, it is disturbing. They think it 
is a wildfire.
    So we let them know what is--and we also show them are 
before and after and the benefits of that fire, the prescribed 
fire. And now, some of our biggest advocates are the ones that 
say, Yes, if you have anybody that is against prescribed fire, 
tell them to call me. So we have a lot of peers that will help 
and come to our defense, landowners and homeowners.
    So you have got to do a lot of outreach with the group, and 
you have got to do a lot of preparation and planning ahead of 
time. So the weather has to be right, conditions have to be 
right so that the smoke cannot be an adverse condition for 
those homeowners and landowners around the fire.
    Mr. Flores. And, of course, one of the ways that the 
prescribed burns are safer is you do it seasons when you are 
less likely to have it migrate into an uncontrolled burn.
    Mr. Boggus. Absolutely.
    Mr. Flores. I am going to try to squeeze in one last 
question. A controlled burn has an environmental impact, a 
wildfire has a huge environmental impact. So because a 
controlled burn has an environmental impact, you have to work 
with the Texas CEQ on that. Describe that relationship.
    Mr. Boggus. That is an ongoing relationship, and that is 
one of the things we hope to get done, and just started 2 years 
ago, working with them to look at their rules. We would like to 
see prescribed fire treated differently than a wildfire, than 
smoke stacks, than car emissions. It ought to have some lesser 
because of the good it does and will help in the long-term 
prevent catastrophic particulate matter getting with a 
wildfire. So we would like to see the TCEQ treat prescribed 
burning and those that are done by trained, certified, 
prescribed fire managers, not just anybody, but that they would 
have a look at the smoke and emissions from a prescribed fire 
differently than they do--we are not there yet, but we are 
having those conversations. And like I said, last week, the 
chair of the TCEQ said, We need to have more prescribed fire on 
the ground in Texas, not less. So we are getting there.
    Mr. Flores. Thank you. I have a couple of other questions, 
but I will ask you to respond supplementally to those. We will 
send those to you. I yield back.
    Mr. Shimkus. The gentleman's time has expired. The chair 
recognizes the gentleman from Georgia, Mr. Carter, for 5 
minutes.
    Mr. Carter. Thank you, Mr. Chairman. And thank all of you 
for being here. This is certainly a serious problem, 
particularly in the State of Georgia. Georgia is the number one 
forestry State in the Nation. As you know we have over 22 
million acres of privately owned land, and only about 1.7 
million acres of government land. So we are a little bit 
different from, I think, the scenario that exists out west.
    However, we have had our share of fires. We had the West 
Mims fires, the Okefenokee swamp is in my district. It is truly 
one of the national treasures of our country. It is a 
beautiful, beautiful area that I have had an opportunity to 
visit on numerous occasions.
    We had a very serious fire there this past year, the West 
Mims fire. One of the adjacent property owners to that was 
telling me about this, and I met with him because he lost a lot 
of land as a result of the fire that started on the swamp, but 
spread to his private land. And I will start with you, Mr. 
Baertschiger, because I see that you worked as a fire training 
instructor, and a national type 3 incident commander.
    I just wanted to ask you, one of the things that was 
brought to my attention by the private landowner was that they 
didn't utilize the air support. If they had been able to 
utilize it quicker, that they could have contained it possibly. 
Now in all fairness, a swamp fire is a little bit different 
than other kind of fires, because you have, from what I 
understand, and I know you all know it a lot better than I do, 
but the Peat moss, and it is hard to put out, because the water 
has to rise up, and again, you understand it much better than I 
do.
    But he did make that point that if--and he attributes it to 
being a problem with the--whether it was low funding and they 
couldn't afford to utilize the air support, the helicopters 
that were available. Is there something that you experienced 
before?
    Mr. Baertschiger. Well, there could be--I wasn't there, I 
don't know what the conditions were. And certain tools work 
good under certain conditions. If you have a wind blowing in 
excess of, say, 20 miles per hour, aviation stuff really 
doesn't help you much. And swamp is tough, because you can't 
use dozers and other mechanical equipment because they don't go 
through the swamp very well. So there are challenges with every 
fire.
    But the example you give is very good. Every forester in 
this country is exposed to catastrophic wildfire. And our 
history shows that going back to 1812, but the great Maine and 
New Brunswick fire, who would have thought that northern Maine 
and Brunswick would burn up, I think it was 3 million acres, 
and kill a lot of people.
    So, it is hard for me to comment on a fire that I don't 
have any specifics, but not all the tools work all the time. In 
Oregon this year, landowners lost 33,000 acres of private 
timberlands from fires burning off of the Forest Service on to 
the private lands.
    Mr. Carter. Let me ask you, I met with him as I mentioned 
before, and he owns a lot of forest land in the area in 
Georgia. And when I met with him, he said a lightning strike is 
what this originated from. And that generally, the Federal 
Government will just let it burn out and not even respond to 
it, is that----
    Mr. Baertschiger. It just depends where it is, and, I 
believe you mentioned it was in a wilderness.
    Mr. Carter. Yes, oh, yes, in the middle of the swamp, or at 
least it started, and now it spread on to the private lands.
    Mr. Baertschiger. In wilderness comes certain engagement 
rules, and I think some of that needs to be reviewed.
    Mr. Carter. I appreciate that. Let me move to--I wanted to 
get to Ms. Germann.
    Ms. Germann. I am Germann.
    Mr. Carter. Now you are in Montana, right?
    Ms. Germann. Yes.
    Mr. Carter. OK. The practices in Montana, I suspect, are a 
little bit different than I described in the State of Georgia, 
particularly in the swamp, and I asked about that in my 
district. We are not all swamp in Georgia, but in my district 
we are. I am in south Georgia. But I wanted to ask you about 
the practice, the forestry practices that you have in Montana. 
Can you describe those very quickly?
    Ms. Germann. Sure. Absolutely. So we have, I will say that 
60 percent of the forested land within the State of Montana is 
managed by the Forest Service. And we have active forest 
management taking place on State, private and Federal lands. 
And anything else that you want to----
    Mr. Carter. I want to ask you specific about the State 
implementation plans, and I guess this is kind of a broad 
question, and I am out of time, but nevertheless, these have to 
be approved by the EPA. Is that the way I understand it?
    Ms. Germann. Yes. And I don't have expertise on the State 
implementation plans. I might ask that my colleague from 
Idaho----
    Mr. Carter. I was just wondering if there were any type of 
barriers that you are having, or any kind of constraints, and 
how soon did they approve those? How quickly do they approve?
    Mr. Shimkus. Quickly, please.
    Ms. Anderson. It normally takes an 18-month period for EPA 
to approve those. So any changes to, like Idaho rules we submit 
for EPA. It is a very long, drawn-out process.
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Carter. Thank you very much.
    Mr. Shimkus. Chair recognizes the gentleman from 
California, Mr. Cardenas, for 5 minutes.
    Mr. Cardenas. Thank you very much for having this hearing. 
Hopefully we can see through the smoke of politics and get 
things a little more right, than not, in this great country. We 
don't have some of the best response systems in the world? 
Aren't we in the upper tier when it comes to being able to 
respond to fires and trying to protect life and property? I 
think everybody pretty much agrees with that. I am not saying 
we are the best, but we are definitely in the upper tier, 
right? We have got all that capacity and capability, thank God.
    One thing I would like to point out is the wildfires that 
have been ravaging through California are in excess of anything 
we have ever seen in the past. For example, 25 years ago, if 
you had a 4,000-acre fire, that was considered big. Now we have 
these mega fires that are consuming over 100,000 acres per 
fire. And then all of a sudden, you have now where people talk 
about fire season. It is kind of like fire year now, there 
really isn't a 3- or 4- or 5-month season. Now the situation is 
so bad, so dire, our forest and our vegetation has dried up so 
much that the--honest to God truth, as they say, protect 
yourself and hope and pray that there is not a fire, because 
there is no season anymore; it could erupt at any given time, 
and then when it does, we see these mega fires and some of them 
are raging as we speak.
    Another thing as well, I would like to point out this is a 
responsibility that we need to hopefully get right as 
policymakers, and as organizations, whether it is local or 
State or Federal. We need to make sure that we can work 
together to minimize the negative effects of these devastating 
fires.
    For example, according to the U.S. Forest Service alone, 
they have spent $2 billion last year just with the fires. That 
doesn't include the economic loss, et cetera. That is just the 
Federal investment in that. I truly do believe that we can 
always do better if we take the opportunity to learn from the 
past, to learn about what is going on today, to learn about 
what it is that--how we are going to deal with this issue that 
many scientists are claiming that some of finest universities, 
Columbia University, et cetera, are saying that climate change 
is, in fact, contributing tremendously to some of the fires 
that are going on today.
    I hope we don't argue about the simple fact that we do have 
a different environment now when it comes to the vegetation, 
when it comes to the ability for Mother Nature to protect 
itself, and we, as human beings, have to make up the 
difference. Again, a 4,000-acre fire, not too long ago, was 
considered big, 100,000 acre fire is now becoming commonplace.
    So with that, I would like to also ask the chair and the 
ranking member coming from California in the future, we can try 
to glean through the wonderful experts, like the ones we have 
here today. Maybe we can get somebody from California up here 
because our disproportionality of being affected by fires as of 
late is just tremendous.
    Again, I don't know if that is a complaint or what have 
you, I think it is an observation with five members from the 
California delegation on this subcommittee. Hopefully in the 
future, we can be a little more----
    Mr. Shimkus. Would the gentleman yield?
    Mr. Cardenas. Yes, absolutely.
    Mr. Shimkus. You do know the process by which the people 
are asked are both from the majority and the minority side.
    Mr. Cardenas. And that is why I mentioned to both of you, 
the chair and the ranking member.
    Mr. Shimkus. Just wanted to make sure it was clarified.
    Mr. Cardenas. But since you brought it up, maybe it is four 
to one, because we get one person and you get four.
    Mr. Shimkus. Will the gentleman yield?
    Mr. Cardenas. I will yield.
    Mr. Shimkus. These negotiations are always done between the 
parties, and I see no objection.
    Mr. Cardenas. OK, thank you.
    So again, that is why I say it is not so much a complaint, 
it is just an observation. And hopefully, we can get fortunate 
enough to have some folks who are dialed in directly within the 
California scene, especially since it is one of the most dire 
in the country now when it comes to our fires.
    Mr. O'Mara, what will the effect beyond California fire 
seasons, or as I just called it, fire years, actually if we 
continue to roll back clean air standards?
    Mr. O'Mara. You mean, the challenges that as the fires get 
worse, the displacing a lot of the air quality benefits that we 
have accumulated through cleaner power plants, cleaner cars, 
energy efficiency, all the work that you are doing at State 
level.
    I actually worked for the mayor of San Jose for 3 years and 
a lot of the work they have been doing--you could undo a lot of 
that progress unless we deal with the underlying issue: the 
public health consequences of uncontrolled fires.
    Mr. Cardenas. Again, Mother Nature can--if we don't help, 
can wipe things out, set us back decades, actually.
    What holistic steps can Congress, and State, and local 
governments take to do our part in reducing the devastating 
blazes across California and the U.S.?
    Mr. O'Mara. I think we talked a lot about funding today, 
making sure that we have the resources for the proactive work, 
through the proactive restoration work. I think there are 
things we can do to help individuals, make sure there is 
mitigation money and things like that. But also, making sure we 
are doing prescribed burns, making sure we are doing good 
management. And frankly, you have some of the best people in 
the country in California. The challenge is they don't have the 
resources they need to do the scale of restoration they need, 
given the scale of the impacts, and we have to help solve that 
problem.
    Mr. Cardenas. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired.
    The chair recognizes the gentleman from the South Carolina, 
Mr. Duncan, for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman. Just like hurricanes 
aren't limited to Florida or the Gulf of Mexico, wildfires are 
not limited to the west. In 2009, Horry County fire down in 
Myrtle Beach, same place being affected by Hurricane Florence, 
experienced 24 miles, 20,000 acres burned, 70 homes destroyed, 
2,500 people evacuated. In my district, we have Sumter National 
Forest, which is 370,442 acres. So national forests and forest 
fires are not limited to the west.
    My wife owns property in Montana. We have been out there 
since I graduated college in 1989. We have seen what the 
spotted owl controversy did to the timber industry in the west. 
I believe that was the beginning of the change of mitigation 
practices and how forests were managed all throughout the west, 
not just in Montana. Families that were supported by timber 
dollars lost their jobs. Ms. Germann from Montana can probably 
attest a number of saw mills are lost, a number of timber 
families have been displaced, and the lack of timber activity 
that you saw in the late 1980s and 1990s; it went away, it went 
away. And at that point, we started managing our forests 
differently.
    So I traveled to Montana, I was out there this summer in 
August. I saw all the smoke. I experienced the smell. I saw 
that all the tourists that came into the Kalispell and Glacier 
National Airport to go to Glacier National Park, probably 
didn't see the beautiful scenery of that national park due to 
the fires, and that was before the Lake McDonald fire. While we 
were there, had a lightning storm, four lightning strikes, 
caused four fires, one of them was a Lake McDonald fire. Burned 
all the way down the lake right there in Glacier National Park. 
Three of the other lightning strikes from the same storm didn't 
burn near as much, because they actually hit on property that 
had been managed properly, and the fires were able to be 
contained a lot quicker than that in the national park, because 
we don't do any sort of mitigation efforts in national parks. I 
am not advocating for that, but I think we ought to at least 
think outside the box when we are talking about managing fires.
    Last summer, not this past August, but a year ago, I was 
also in Montana, and the Gibraltar Ridge fire, which you are 
probably aware of up in Eureka, Montana, that was burning very 
close to our property. So I took it as an opportunity upon 
myself, and I challenge every Member of Congress and on this 
committee, to go to a fire camp and visit with the people that 
are fighting the fires in the fire camp like I did in Eureka, 
Montana, and then get in the truck with the forest manager, and 
go out to the fire line and see how these fires are fought. 
Because I went to the Gibraltar Ridge fire, and I spent 3 hours 
on the fire line to see the techniques that were being used, 
mainly mitigation efforts to keep that fire from moving toward 
where people live, and that personal property to keep it from 
being destroyed. Other than that, it was just trying to contain 
the fire, keep more forest acreage from being burned. But they 
weren't trying to put the fire out at all.
    In fact, in the wilderness study area, there is minimally 
invasive suppression techniques, missed techniques. So they 
weren't doing anything up there, but maybe trying to contain it 
a little bit. Very difficult to get to, I get that.
    Having said all of that, we need to back up as a nation and 
start talking about how we manage our forests. That means more 
timber activity. This is the American taxpayers' resources and 
it is growing, it is going to regrow. We have practiced timber 
sales forever. And one of the ways that we can mitigate the 
pine beetle is cut the timber. She said we don't have a funding 
stream to do some of these clearing techniques. Guess what? It 
is called timber sales. They pay for themselves, actually 
provide revenue back to the government to provide revenue for 
these expenses.
    So let's manage our forests, let's sell some of the timber, 
and then let's look at shading along rodads and near where 
residential areas are, let's look at fire breaks. Let's look at 
prescribed burning.
    I mentioned the Horry County fire earlier. The reason that 
fire was so bad and got out of control, and even the 
firefighters had to employ shelters to let the fire go over and 
to keep from losing their lives is because the northerners that 
moved down to South Carolina and occupied in Myrtle Beach, did 
not like the smoke from prescribed burning. And so prescribed 
burning didn't happen. And because the prescribed burning did 
not happen, there was a lot of fuel there. Once that fire 
started, it burned out of control, because there was so much 
fuel for it. If we don't manage these fires out west and even 
in South Carolina with prescribed burning and good management 
techniques, we are going to see, continue to see, out-of-
control wildfires that are very difficult to contain and we are 
going to pray for a snowfall to put these doggone things out, 
because that is what they pray for out west is that snow to get 
there. They see a thunderstorm come in August, that is kind of 
a double-edged sword. It is providing some moisture to help 
contain some of that fire, but it is also providing additional 
lightning strikes.
    I was talking to Brian Donner at the Kootenai National 
Forest Service, a forest ranger there. You may know Brian. He 
said while they were fighting one fire, a lightning storm came 
in, they saw lightning hit over on a hill. They saw the tree it 
hit. They knew right where to go, but before they could get 
there, because of the amount of fuel that was there, there was 
5 or 10 acres already burning and that was very difficult to 
start containing at that point on the top of that mountain. Had 
they done prescribed burning and that fuel had gone away, that 
fire would have been contained a lot quicker.
    The last thing I will say, Mr. Chairman, because----
    Mr. Shimkus. Your time has expired.
    Mr. Duncan [continuing]. She said in her statement--thank 
you--over the past century--and this was a good statement by 
the way, by Ms. Germann--over the past century a cultural fire 
exclusion unfortunately removed the natural role of fire from 
the public consciousness, when combined with a reduced level of 
forest management in many areas of the country, fire exclusion 
led to the buildup of forest fuels to unprecedented levels. 
Despite our attempts to manage away wildfire, many of our 
forests are more fire prone than ever. And that is the truth.
    And with that, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the gentleman from California, Mr. Peters for 5 
minutes.
    Mr. Peters. Thank you, Mr. Chairman. My constituents in San 
Diego are acutely aware of these issues. I do think it was 
progress to do the fire fix. I worked really hard on that to 
make sure that we weren't spending prevention money fighting 
fires because it just makes it harder to do. You are never 
going to catch up.
    Mr. O'Mara, I have two questions for you, though. 
Specifically on the Clean Air Act in your testimony, you noted 
the strange thing where, in terms of calculating your 
compliance, whether you are in attainment of the National 
Ambient Air Quality Standards, you are penalized for prescribed 
burns, but not necessarily for natural burns that happened as a 
result of not taking care of things. You suggest that EPA can 
take care of this themselves. Is that not something Congress 
has to do? Tell me why EPA can change that?
    Mr. O'Mara. Yes, if you go back to the record--the Clean 
Air Act amendment to 1990, this anthropogenic versus natural 
kind of distinction isn't as clear-cut as you might think. It 
has been an administrative practice, and the challenges that 
seems to build your prescribed burn and your State 
implementation plan and basically account for it, a wildfire 
you have to--it is excluded. You had to get an exemption, 
because it is kind of considered natural. The challenges--I was 
in Delaware at the time we were trying to prescribe burns, 
Delaware has so many challenges being downwind, pollution from 
coal plants out in the Midwest, there is nowhere to put it in a 
ship. You have to find a different place in some of those 
sources to offset. And so it becomes a big burden, so you end 
up not doing the very thing that would help protect you long-
term because of the potential penalty.
    Mr. Peters. So you think that that can be addressed at an 
administrative level?
    Mr. O'Mara. I believe so.
    Mr. Peters. One other question for you, I like what you 
did, which was sort of threw out your notes, so I will throw 
out my notes a little bit and ask you if you were in charge of 
allocating money for fire, where would you put it first? What 
would be, you think the highest priority for new fire money?
    Mr. O'Mara. There are great collaborative plans that have 
been on the books for years that don't have the resources to 
get on the ground. I think I would prioritize on the interface 
projects that have the potential of loss of human life. But I 
would pour money into mitigation, I would pour money into 
prescribed burns. I would pour money into the collaborative 
plans that already have buy-in among communities, because they 
are going to move faster through the process. But we need to 
move from a couple acres a year to tens of millions of acres a 
year. We don't have the capacity at this point. The Forest 
Service has been, through sequester, their resources were taken 
down so far in addition to not having the money because of the 
fire borrowing issue. We have got to rebuild fire capacity in 
this country at both the Federal and State level.
    Mr. Peters. The collaborative plans you are talking about 
are regional collaborative plans?
    Mr. O'Mara. The regional level, yes.
    Mr. Peters. And what sort of management reforms would you 
like to see enacted, management reforms? I have to confess, I 
hear a lot of discussion back and forth. It sounds like 
disagreement, but never quite understand, kind of, what is it 
that we are fighting over?
    Mr. O'Mara. Look, I think there are places where you could 
have more efficient processes. There are things where maybe not 
having to go through the same level of review for individual 
parts of project if you actually do the analysis at the 
landscape level. We layered on so many parts of the process.
    Mr. Peters. How do I write that down? How do I write that 
down from here? What does that mean?
    Mr. O'Mara. There are ways to do it. I mean, there is some 
language that Senator Cantwell was working on around Ponderosa 
pine, basically trying to say, Look, if it fits this kind of 
landscape project, we will have kind of one analysis, one 
environmental impact review as opposed to having them do every 
individual discrete component.
    So there are some things we can do at the landscape level. 
Some of that could be done administratively. And if the Forest 
Service has predictable resources to be able to do that kind of 
planning, but a lot of these forest plans are 20, 30, and 40 
years old. It means we are updating project plans, we are not 
looking at the landscape level. We would love to work with you 
on that, because I think that could be bipartisan. I don't 
think that would be a controversial issue.
    Mr. Peters. Obviously, I am particularly interested in the 
urban forest interface. And I am concerned about the fact that 
it is not even October and we have already had fire season, we 
are not even into October. So we are getting ready for what we 
hear from our local firefighters is as bad a condition or worse 
than 2003 and 2007, which were the fires that cost San Diego 
County a lot of property, and money, and damage. So we are very 
interested in taking you up on that and look forward to talking 
to you.
    Mr. Chairman, I yield back.
    Mr. Walden [presiding]. The gentleman yields back. The 
chair recognizes the gentleman from Ohio, Mr. Johnson. Thanks 
for joining us. You are recognized for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman and thanks for holding 
this hearing today.
    While many of our witnesses are from western States, these 
issues are certainly relevant to where I live there in Ohio. I 
have a significant portion of the Wayne National Forest within 
my district which will, from time to time, carry out prescribed 
burns. The Wayne is a patchwork of public and private lands. So 
these burns are meant to protect human property and reduce 
potential damages from wildfire, but they can also encourage 
the growth of plant life, and help ensure oaks, for example, 
remain prevalent within the forest.
    So while we have heard about the benefits of these 
practices, prescribed burns today, whether that is air quality, 
safety, et cetera, I would like to discuss the planning that is 
undertaken before a burn happens. It is crucial that many 
factors are considered before conducting a burn, such as 
temperature, humidity, atmosphere stability, wind direction and 
speed, as well as smoke dispersion.
    So a question for either Ms. Germann or Mr. Boggus, or 
both, along with other resource constraints and other issues, I 
am sure these factors that I just listed inhibit the ability to 
accomplish all that is needed to be accomplished over the 
course of a month or a year. So how do you balance the factors 
in planning with the need to efficiently manage healthy 
forests?
    Mr. Boggus. You mentioned it already that is planning, you 
have got to look out. We have a meteorologist on staff because 
of the very conditions you are talking about. And we have an 
urbanizing State. I know Montana has 1 million folks, we have 
28 million; in Ohio, the same way, a very populated State. You 
have to take those into consideration. We have 94 percent 
privately owned. So we don't have the luxury of--if a fire 
starts, we have got to get on it, and we suppress them all 
because there are human lives and property, and improved 
property at stake. And so you have got to plan that. And 
because of that, you have got to have folks that are dedicated 
to, we call them predictive services. So they are telling us 
days and weeks ahead what the weather is going to look like, 
when is it going to be right,
    And so you have these plans written way ahead of time. And 
you know this is the time, this is the window that this 
particular piece of land will burn. So then you have Good 
Neighbor Authority on Federal lands that you work with those, 
with our partners there. And so, we have got those agreements 
done well in advance. So you are not like, Oh, my gosh, it is a 
good day to burn, and you go out and burn. So the planning is 
crucial.
    Mr. Johnson. Sure. Ms. Germann, do you have anything to 
add?
    Ms. Germann. Certainly. I think one of the challenges we 
were talking about before this hearing is the social license 
that you have with this. And something that we constantly face, 
our Federal partners, we as State agencies face when we are 
planning prescribed burning, the communication piece, so 
educating the public, getting them to understand the benefits 
of that.
    In the State of Montana, we burn, on average, about 30,000 
or 40,000 acres of forested land per year, prescribed burning. 
We need to do about 10 times that, from an ecological 
perspective, to really have an impact on fuels reduction. And 
one of the things that we find the most challenging is getting 
the public buy in. So I think in addition to all the planning 
is the communication piece of that that we need to constantly 
be doing better.
    Mr. Johnson. Gotcha. Well, along those same lines, how do 
you choose what section of forest to address next, particularly 
if you can't treat every section that needs to be treated? You 
said you are doing 10, or you are doing 45,000, you need to do 
10 times that many. How do you decide which 45,000 acre lot to 
do.
    Ms. Germann. So there is a number of different filters. And 
I want to clarify that in the State of Montana, we don't just 
put prescribed burning on the ground, we have to do active 
mechanical fields reduction before we do that, because our 
fields are at such unprecedented levels. We use a number of 
different things statewide, and I will talk about our forest 
action plan that we are going to be undertaking. What we did do 
in the State of Montana is our governor did identify 5 million 
acres of priority treatment, and that was on Forest Service 
land, under the authority of the 2014 farm bill.
    So we match that along with high severity areas, identified 
by community wildfire protection plans. We use collaborative 
groups to really help identify where we need to be focusing our 
treatment. A lot of that is driven by forest pests, insects and 
disease occurrence, fuel loading, wildfire hazard. We have a 
lot of that data, and that is where we typically plan our 
priority treatments.
    Mr. Johnson. Thank you, Mr. Chairman. I yield back.
    Mr. Walden. The gentleman yields back. The chair recognizes 
the gentleman from California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. Well, I thank the chairman and ranking 
member. It feels kind of strange, this morning we were talking 
about hurricanes, and now we are talking about wildfires. But 
both of those have some connection to climate impact, so this 
has to be a holistic discussion.
    Now, it seems to me the difficulty is managing forests to 
prevent and minimize damage, but also protecting health and 
safety. On the other hand, is it necessary, or will it be 
necessary at all to prevent--to manage development, so that we 
don't put people and property at risk at these high risk areas. 
So my question was sort of a general one for whoever wants to 
answer: How should we be thinking more holistically about 
forest fires and management?
    Mr. Baertschiger. I would like to respond to that. In your 
State, which I have been down many times fighting fire, has 
that Mediterranean climate, and your fuels cure much earlier in 
the season, and they stayed cured much longer, and then you 
have the Santa Ana wind event in the southern California. So 
dispensable space around houses and evacuation routes need to 
be a lot more thought through because fire in your State burns 
very quickly. As a firefighter, we say in Oregon, sometimes you 
can't run fast enough. In California, you can't drive fast 
enough. So I think that is something you need to take into 
consideration as you build your communities and expand them 
into what we call the urban interface, that those conditions 
are really taken into consideration, defensible space and 
evacuation routes.
    Mr. McNerney. Well, I would like to direct this toward Ms. 
Germann. How are you working with communities to manage 
building in these high risk areas?
    Ms. Germann. In Montana and some research just came out 
from one of our groups out of Bozeman that showed that a 
tremendous amount of money is being spent in urban interface in 
suppressing fires. And I will say, in Montana, we are in the 
infancy of talking about this from a land use planning 
perspective. But what we do is DNRC, we are really trying to 
interface with the local government to help them organize 
around the tenets of the cohesive strategy. Talk to them about 
fire-adapted communities, the stuff that we are experts at, at 
forest management, really helping local governments do that 
treatment in and around homes; and educate people on the risk 
of living in the wild land, but urban interface. But from a 
planning perspective, it is really pretty much in its infancy 
in the State of Montana.
    Mr. McNerney. So do you feel the local communities are 
responsive to your advice and input?
    Ms. Germann. Certainly, absolutely. We pride ourselves in 
really excellent relationships with local governments. We have 
a local government forest adviser who is engaging with county 
commissioners and volunteer Fire Departments on engaging with 
the Forest Service, which is the predominant landowner, forest 
landowner around the communities about suppression efforts, 
about forest fuels reduction, and certainly, we help deliver a 
lot of that education to private landowners within our 
communities.
    Mr. McNerney. Mr. O'Mara, is there a lack of funding that 
we can address at the Federal level to improve how we as a 
nation handle wildfire management?
    Mr. O'Mara. Yes. I think it is amazing what the Congress 
did in the last session, fixing the fire borrowing practice; it 
is still an underinvestment. I can say all Americans are 
Libertarians until they need help. We have to figure out a way 
to monetize some of these costs. They are putting people in 
harm's way, they are putting firefighters in harm's way. It is 
the same thing in flood insurance, it is the same thing. We are 
basically paying people to be in more risky areas. I think we 
are billions of dollars short in terms of the amount of money 
that is used toward active restoration annually, that is the 
kind of level of funding that we are going to need, because 
Chairman McKinley and I have gone back and forth on many 
issues. He is exactly right. I want to say when he is not here. 
Because we are not talking the east coast forest enough. The 
east coast forests and the Great Lakes forests have equal 
threats, they are just a couple of years behind in terms of the 
temperature patterns.
    Mr. McNerney. Well, I think one of the big controversies or 
areas of disagreement is whether we should use suppression or 
management. From the science that I have seen, the fires can be 
managed better, and it gives the forest a better chance to 
recuperate and create natural fire breaks and natural water 
sheds and so on. So I wouldn't rush to one or the other. But I 
would lean toward management, in my opinion. Thank you, I yield 
back.
    Mr. Walden. The gentleman yields back, I want to thank our 
panelists for being here, we will send Mr. McKinley a video of 
your comments where you agree with him. I don't know how that 
is going to play out. But we do appreciate it. Our work is 
better informed by your participation, I know some of you, 
including the Senator, have traveled great distances, and we 
thank you for doing that.
    Seeing there are no further members to ask questions for 
the first panel, I would like to thank all of our witnesses for 
being here today. Before we conclude I would like to ask 
unanimous consent to submit the following documents for the 
record: Two academic reports entitled Prescribed Fire in North 
American Forest and Woodlands, and Prescribed Fire Policy, 
Barriers, and Opportunities; and document from the National 
Academy of Sciences, called, The Impact of Anthropogenic 
Climate Change on Wildfire Across the Western U.S. Forests; an 
article from GeoHealth, Future Fire Impacts on Smoke 
Concentrations, Visibility and Health in the Contiguous United 
States; Washington Post editorial board, We Won't Stop 
California's Wildfires if We Don't Talk About Climate Change; 
New York Times article, Trump Inaccurately Claims California is 
Wasting Waters as Fires Burn; the Scientific American article 
Fuels by Climate Change Wildfires Erode Air Quality Gains; and 
a document from the National Wildlife Federation, Mega Fires.
    And in pursuant to committee rules, I remind members they 
have 10 business days to submit additional questions for the 
record. I ask that our witnesses respond to those questions 
within 10 business days upon receipt of those questions. And so 
again, thank you all for participating in this very important 
hearing, and without objection, this subcommittee is adjourned.
    [The information appears at the conclusion of the hearing.]
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
